<html>
<title> - THE STATE OF THE U.S. DEPARTMENT OF VETERANS AFFAIRS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                  THE STATE OF THE U.S. DEPARTMENT OF
                            VETERANS AFFAIRS

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS

                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 18, 2007

                               __________

                           Serial No. 110-42

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                     U.S. GOVERNMENT PRINTING OFFICE
39-451 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, Jr., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                           September 18, 2007

                                                                   Page
The State of the U.S. Department of Veterans Affairs.............     1

                           OPENING STATEMENTS

Chairman Bob Filner..............................................     1
    Prepared statement of Chairman Filner........................    27
Hon. Steve Buyer, Ranking Republican Member......................     2
Hon. Harry E. Mitchell, prepared statement of....................    27
Hon. Jeff Miller, prepared statement of..........................    28

                               WITNESSES

U.S. Department of Veterans Affairs, Hon. R. James Nicholson, 
  Secretary......................................................     4
    Prepared statement of Secretary Nicholson....................    28

                       SUBMISSIONS FOR THE RECORD

Brown, Hon. Corrine, a Representative in Congress from the State 
  of Florida, statement..........................................    34
Brown-Waite, Hon. Ginny, a Representative in Congress from the 
  State of Florida, statement....................................    35

                   MATERIAL SUBMITTED FOR THE RECORD

Post Hearing Questions and Responses for the Record:
Hon. Bob Filner, Chairman, Committee on Veterans' Affairs, to 
  Hon. Gordon Mansfield, Acting Secretary, U.S. Department of 
  Veterans Affairs, letter dated October 10, 2007, transmitting 
  questions from Hon. Corrine Brown, Hon. Stephanie Herseth 
  Sandlin, and Hon. Joe Donnelly.................................    35
Hon. Steve Buyer, Ranking Republican Member, Committee on 
  Veterans' Affairs, to Hon. Gordon Mansfield, Acting Secretary, 
  U.S. Department of Veterans Affairs, letter October 5, 2007, 
  transmitting questions from Hon. Gus M. Bilirakis..............    39


          THE STATE OF THE U.S. DEPARTMENT OF VETERANS AFFAIRS

                              ----------                              


                      TUESDAY, SEPTEMBER 18, 2007


                    U. S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                     Washington, DC

    The Committee met, pursuant to notice, at 11:01 a.m., in 
Room 334, Cannon House Office Building, Hon. Bob Filner 
[Chairman of the Committee] presiding.
    Present: Representatives Filner, Michaud, Herseth Sandlin, 
Mitchell, Hall, Hare, Berkley, Salazar, Space, Walz, Buyer, 
Brown of South Carolina, Miller, Boozman, Turner, Lamborn, 
Bilirakis.

              OPENING STATEMENT OF CHAIRMAN FILNER

    The Chairman. Good morning. I am going to call this meeting 
of the House Veterans' Affairs Committee to order.
    Thank you, Mr. Secretary, for joining us and bringing your 
team with you. As usual, we will have votes at some point soon. 
So, unfortunately, I am sorry we will have to recess, but we 
will have to do that to vote.
    We have a very simple agenda, Mr. Secretary, and that is to 
thank you, to thank you for your service as Secretary, to thank 
you for your commitment to our veterans, for the job that you 
did for so many people in our society.
    We want to again honor you for your service. We want to 
give you a chance to sum up the achievements that you have had 
and give us a to-do list in the future for us and for your 
successor.
    You worked with us during very tough, challenging times. We 
have veterans that we have to serve from the past in World War 
II, Vietnam, Korea, Persian Gulf, and we have got new veterans 
coming back with very difficult injuries, very difficult 
circumstances that we are going to have to care for. That is a 
tough challenge. And we have worked with you to put the 
resources in place to meet that challenge.
    I want to just personally thank you for working with us so 
closely during your term of office. I know my wife, Jane, 
thanks your wife, Suzanne, for working together on the 
Paralyzed Veterans of America (PVA) Gala.
    And I want to thank you for taking this trip that 
Congressman Boozman and I, and you, took at your suggestion to 
Iraq and Afghanistan where we followed the trail of the wounded 
warrior from wounds on the battle field to medical evacuation, 
to surgery at a forward base hospital, to movement to the main 
hospital, and then on to Landstuhl. And we followed that trail, 
talked to people who did surgeries or medivaced the people that 
we are going to have to serve in the future.
    And we thank you for your leadership on that. I was 
particularly struck with a question you asked, of the people we 
met, on post traumatic stress disorder (PTSD) where you were 
concerned very specifically for what preparation our soldiers 
would have before going into battle as opposed to what we have 
been concentrating on after battle.
    And I was very struck with your concern. I was struck with 
the lack of responses, by the way, but your concern, your 
commitment, and the far-sighted kinds of programs that you have 
instituted in the U.S. Department of Veterans Affairs (VA).
    So, again, we have a simple agenda, to thank you and for 
you to say goodbye on a summary note and for letting us know 
what you see in the future. Again, thank you for being here. 
Thank you for bringing your team.
    [The prepared statement of Chairman Filner appears on p. 
27.]
    The Chairman. Mr. Buyer.

   OPENING STATEMENT OF HON. STEVE BUYER, RANKING REPUBLICAN 
                             MEMBER

    Mr. Buyer. Mr. Secretary, big smiles. This is your last 
time to testify here before the House. And I want to take the 
occasion to say thank you.
    Those I have worked with over the years, the position as 
Secretary and that of Under Secretary can be a thankless job. 
And you also share the same intangible of the men and women you 
had the privilege to lead. They do not have to serve and work 
in the VA. They do so for a number of very personal reasons 
because they can sure make a lot more money doing other things.
    I will agree with Mr. Filner that your sincerity is 
unquestionable. Your devotion to your fellow men and women is 
remarkable and I think you have exhibited that throughout your 
career, not only as an Army officer, not only in times of 
peace, but also in times of war.
    And that has given you a tremendous amount of strength as 
you have also relied upon your faith to help guide you and to 
help guide our country among a lot of turmoil throughout the 
world.
    So I thank you for your service representing our country to 
the Vatican as an Ambassador. I thank you for your service as 
Secretary, for having the privilege to care for America's most 
precious assets, the men and women who wear the uniform and 
have been hurt in the line of duty whether it be during peace 
or at war.
    And your responsibilities really are not too much different 
from ours because the Constitution lays out those 
responsibilities. Ours are to fund your budgets. We also have 
the oversight responsibility and we also with earnest and 
sincerity work equally hard to right the wrongs and also then 
to defend that which we believe is right.
    And we all want what is best for our comrades. And so there 
are times where we can disagree and agree to disagree, but I 
really believe that with all sincerity, that is the track in 
which we work.
    And it only works when we all partner with each other, not 
only the House and Senate and with our interpretations of the 
Supreme Court's judgments of what we do, but also among 
Republicans and Democrats who serve on the Committee. It only 
works when we partner because that is, in fact, how we get the 
best product.
    When that does not happen, then America and the comrades 
who we serve do not get the best product. And that is what 
happened the last time that this Committee was back together.
    We had a markup, a bill called H.R. 760, and for the first 
time that I have been here--matter of fact, we cannot even 
remember the last time there was a party line vote in this 
Committee. We are deeply concerned, the Members that I have had 
conversations with on both sides of the aisle.
    We are going to work together in a bipartisan fashion. We 
are going to continue to do that. Those relationships we have 
developed over the years are too strong. I do not know the 
future and the way ahead. I am not the Chairman of this 
Committee.
    Mr. Secretary, your record, I think, is pretty 
extraordinary. The reason I say extraordinary is because I 
think anyone that wants to step in to be Secretary of the VA 
wants to leave it better than what it was when you got there. 
You get the privilege of saying that.
    Even though there are many challenges still in front of 
you, many of which you are still working on. When I think of 
the things that you have personally done, you have exhibited 
leadership, meaning you have said I will take the time to 
listen, to understand a problem. You accepted responsibility, 
accountability, and then you took positive action.
    So when it was the issue on budget integrity and we worked 
with you on the budget modeling issues, you told this Committee 
that you will take ownership of the budgetary process. And when 
you did that and you fixed the flaws in that budgetary process, 
your budgets, which are 2007 and 2008, are very robust and 
receive compliments from not only the veterans community but 
also from this Committee.
    When I think about the information technology (IT) systems, 
you have other departments of government that envy the VA. And 
what you have been able to do in empowering the Chief 
Information Officer will pay great dividends and I think you, 
by your actions, you are helping our entire government because, 
once again, the VA is at the tip of the spear setting the pace 
for the country.
    The same with seamless transition. You are setting the pace 
and at times pulling the U.S. Department of Defense (DoD) 
begrudgingly your way. You have a partner now as the new 
Secretary of the DoD wants to work with you in doing that.
    We also have the Presidential Commission and this Committee 
is eager to hear your recommendations and that of the 
President's Commission. And I am sure you have some comments on 
that.
    The last thing as you are leaving that this Committee is 
eager to work on--Admiral Cooper will still be here--is the 
Disability Commission's recommendations to us and how we can 
address those issues.
    Mr. Secretary, to you, I want you, as you leave here today, 
to know that we are deeply appreciative that you have taken 
time from your family to serve the greater family, that of your 
comrades.
    I yield back.
    The Chairman. Thank you, Mr. Buyer.
    Mr. Secretary, rather than interrupting you, we are going 
to recess to vote and then we will reconvene to hear your 
statement. I apologize for the schedule, but it is not under 
our control.
    Again, we are very gratified that you are here to be able 
to say goodbye and to say goodbye with a thank you for great 
service done to this Nation.
    We will recess until the votes are over.
    [Recess.]
    The Chairman. Mr. Secretary, we thank you for your service. 
I know you brought your team with you. We thank them all. I do 
not know if they know what is going on with the team after you 
depart, but we thank the whole team for their commitment and 
their service to our veterans.
    Mr. Buyer has arrived, so please continue.

     STATEMENT OF HON. R. JAMES NICHOLSON, SECRETARY, U.S. 
DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY HON. MICHAEL J. 
 KUSSMAN, M.D., MS, MACP, UNDER SECRETARY FOR HEALTH, VETERANS 
  HEALTH ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
 HON. DANIEL L. COOPER, UNDER SECRETARY FOR BENEFITS, VETERANS 
 BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
 HON. WILLIAM F. TUERK, UNDER SECRETARY FOR MEMORIAL AFFAIRS, 
 NATIONAL CEMETERY ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
     AFFAIRS; PAUL J. HUTTER, ACTING GENERAL COUNSEL, U.S. 
DEPARTMENT OF VETERANS AFFAIRS; AND ROBERT J. HENKE, ASSISTANT 
 SECRETARY FOR MANAGEMENT, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Secretary Nicholson. Thank you, Mr. Chairman and Members of 
the Committee. Thank you for holding this hearing and giving us 
the opportunity to discuss the current state of the VA.
    I would like at the onset to introduce those Members of my 
team that are here at the table with me. Starting at my right, 
your left is the Under Secretary for Memorial Affairs, Bill 
Tuerk. Next is the Under Secretary for Benefits, Admiral Dan 
Cooper. And to my immediate left is the Under Secretary for 
Veterans Health Administration (VHA), Dr. Michael Kussman. To 
my far right is Mr. Paul Hutter, the Acting General Counsel of 
the VA and to my immediate right is Bob Henke, the Assistant 
Secretary for Management of the VA. A group of very 
distinguished public servants, believe me.
    It has been a real honor to serve the President and our 
Nation's veterans as the Secretary of Veterans Affairs these 
past 32 months. My own military service and the tradition of 
veterans go back a long way in my life.
    My father was an enlisted man in the Navy during World War 
II. My father-in-law served in both World War II and Korea. My 
brother served 30 years in the Army. My son is a veteran and 4 
of my nephews currently are Colonels in the Army and Air Force.
    And I have a particular affinity for the young men and 
women currently serving in the Global War on Terror and to me, 
they are heroes, those volunteer servants.
    Mr. Chairman, you and I, along with Congressman Boozman, 
returned recently from a trip to Iraq and Afghanistan and there 
we had the opportunity to speak with these young troops as well 
as with their leaders.
    What we both saw, what we all saw was the most impressive 
group of Americans, a group that makes us all proud. They know 
their mission. They know their jobs. They are motivated. They 
are all volunteers. They are young, bright, and speak 
eloquently of their patriotism and how they see the importance 
of their own roles in the war we are fighting today against the 
radical Islamists.
    That trip and others that I have taken to that region, one 
with then Chairman Buyer, now Minority Member Buyer, renewed my 
own commitment to assure that we at the VA should do everything 
in our power to meet the needs and those of the families of 
these warriors. We can do no less. They have earned no less.
    So, Mr. Chairman, today I would like to give you my current 
assessment of the VA with that mission as our background. I 
would like to review our initiatives and accomplishments and 
discuss remaining challenges.
    My emphasis will be on the transformations that we have 
achieved, especially with respect to Operation Enduring Freedom 
(OEF) and Operation Iraqi Freedom (OIF).
    My assessment is that the VA is quite possibly the best 
healthcare system in the world. This is borne out by a number 
of sources, those who accredit and assess such things, as well 
as the major media of this country.
    Most recently a book has come out called ``The Best Care 
Anywhere: Why VA Healthcare is Better than Yours,'' written by 
a person named Longman whom I have never met, the fellow at a 
think tank.
    And if you are not convinced yet, Mr. Chairman and Members 
of the Committee, I want to cite the ultimate source for you. 
The statement last week being, ``The veterans hospitals, that 
is a completely government-run operation and it is the best 
healthcare in America,'' a statement by Bill Maher on the 
``Real Time With Bill Maher.'' So take that one to the bank.
    The Veterans Health Administration really is quite 
extraordinary. It is a healthcare delivery system with the 
following characteristics, I think, which in the composite make 
it that world-class system.
    It is a flexible organization that can change rapidly to 
meet the exigent needs of veterans. It leads the Nation in 
prevention, evaluation, and treatment of PTSD and traumatic 
brain injury, about which I will speak more momentarily.
    It continues to lead the world in maintenance and 
improvement of the electronic transfer of medical information. 
It is a leader in applying the advances made in understanding 
the human genome with continuing research underway at the VA. 
And VA research will continue to push the frontiers of medicine 
and VA clinicians will lead the way in bringing the latest 
research advances to the bedsides of our patients.
    And I would add parenthetically there, Mr. Chairman, that 
the VA has now successfully completed the clinical testing of a 
vaccine for shingles and that vaccine is now on the market and 
doctors can prescribe it to patients. That was done through VA 
research.
    It will continue to improve patients' access to healthcare, 
reduce waiting times in virtually every area, and provide 
state-of-the-art prosthetic and other aids in a timely manner 
to all patients.
    Let me speak to veterans' benefits. The Veterans Benefits 
Administration (VBA) is an immense institution. It provides a 
vast array of benefits to include educational benefits, home 
loan guarantees, life insurance, vocational rehabilitation, and 
employment programs.
    It also, of course, administers the veterans pension system 
and the disability compensation system. Approximately 830,000 
claims for disability benefits are now being filed each year. 
Claims for disability compensation, more than half of which are 
reopened claims seeking an increase in percentage of 
disability, present complex issues of service connection, 
effective date, and degree of disability.
    For the veteran or his family unfamiliar with the legal and 
regulatory structure that defines this benefit system, 
navigating it can be a challenge. To assist them, the VBA now 
operates an extensive network of public contact and outreach.
    During 2006 alone, the VBA public contact staff handled 
nearly 7 million phone calls from veterans and we conducted 
more than a million interviews.
    Let me mention the Advisory Committee on OIF/OEF veterans, 
which I created to give me a tool to assess off-line, if you 
will, at the grass-roots level better how we are doing. It is 
an Advisory Committee on veterans and their families that 
assists me in ways to respond better to the unique needs and 
improve the programs serving those veterans, their families, 
and their caregivers.
    The Committee is composed of veterans, survivors, and 
families, all of whom have a unique insight into just how we 
are responding to their needs. The Committee will continue its 
work in the months and years ahead and monitor how VA is doing, 
how we can do it better, and point that out directly to the 
Secretary.
    Because of the unique and immediate needs of this 
particular group of veterans, that is the current combatants, I 
directed the Veterans Benefits Administration to give priority 
to these veterans who apply for disability compensation or 
pension. These claims are now being processed on an expedited 
basis.
    The improvised explosive device or IED is the signature 
weapon of the war that is being fought today in Iraq and 
Afghanistan. Regrettably, it has given rise to what has been 
referred to as the signature injuries of this war which are 
traumatic brain injury or TBI, and post traumatic stress 
disorder, or PTSD.
    PTSD is different from TBI although they can coexist. The 
stress of the type of warfare our servicemembers are 
experiencing coupled with the fact that they are redeploying 
with their units multiple times can sometimes give rise to one 
or more mental health diagnoses such as PTSD, substance abuse, 
depression, or anxiety.
    To ensure prompt identification of these issues, I have 
directed that servicemembers and families coming to the VA for 
any reason, any reason whatever, be screened thoroughly for 
traumatic brain injury and PTSD.
    The goal is to detect it early so that we can treat it and 
return that veteran to a lifestyle that is mentally healthy. 
And the probabilities of that are much higher the earlier that 
we detect it.
    Helping each of our patients to get better is what the VA 
should be doing and this applies to mental illness as well as 
physical injury.
    One venue for providing support for veterans with 
readjustment issues is our Vet Center Program. Across the 
country, there are 209 Vet Centers each staffed with 
professionals who provide no-hassle counseling to veterans and 
their families.
    The VA has, at my direction, recently hired 100 new 
outreach counselors to provide the service to returning OIF/OEF 
veterans. These outreach counselors are themselves veterans as 
well. They understand that group of veterans and can relate 
directly to them. These new coordinators are located in Vet 
Centers throughout the country, especially near our military 
processing stations.
    I would like to mention some of our health initiatives that 
we have launched. When I came to this job, I was stunned to 
learn that over 25 percent of the veterans that we are treating 
suffer from adult onset diabetes type II and that is a disease 
that is often associated with obesity. And diabetes is a 
disease that you well know can lead to complications which in 
time result in blindness, renal failure, and amputations.
    Because of the seriousness of the diabetes diagnosis, I 
commenced a major campaign to reduce this high rate of obesity 
and diabetes in veterans. And it is underway and showing signs 
of promise.
    Another major health initiative that we have kicked off is 
what we call the MRSA initiative. That stands for methicillin 
resistant staph aureus which is staph infection sometimes found 
in hospitals. We launched a pilot of this at our Pittsburgh VA 
hospital and found the results of it to be very promising. And 
we found that by isolating patients who were carrying the 
bacteria and by scrupulous sanitation habits that MRSA can be 
virtually eliminated, and it was in the Pittsburgh hospital.
    So we have now launched, using that pilot as the model, 
this program across the entire system of the VA. And I might 
add that the staff, while it impedes work, especially of 
doctors who have to stop and regarb and wash their hands as 
well as nurses, it has been embraced enthusiastically. I would 
also add that MRSA today kills more people in our country than 
are killed on the highways.
    Another initiative that we have launched is to try to 
fulfill the shortage of nurses that we have at the VA, which is 
endemic to healthcare in the United States. We feel that 
throughout the VHA system, there is a tremendous challenge for 
the recruitment and retention of nurses.
    So as an effort to ameliorate this situation, we have 
recently created a new multi-campus nursing academy through 
partnership with the nursing schools throughout the country to 
address this shortage of nurses.
    Over the years, there has been a radical change in the way 
that healthcare is delivered in this country. At one time, 
individuals who were ill went to a hospital and more often than 
not, they stayed there for many days, especially at the VA. 
That is no longer the case.
    Today the best medicine involves getting you into and out 
of a hospital as quickly as possible--now the VA has nearly 900 
outpatient clinics which we call community-based outpatient 
clinics or CBOCs as well as outreach clinics. During my tenure, 
I approved 82 new CBOCs to bring the VA's top-notch care closer 
to veterans who have earned it by their service.
    Among the things that make this system of healthcare so 
effective is the Veterans Health Information System or VHIS, 
the nationally recognized electronic medical record used 
universally throughout the VA such that an enrolled veteran can 
be treated at any one of our points of access and all of his or 
her relevant information will be available instantaneously at 
the treating healthcare facility.
    Those are physical health initiatives. Let me mention 
mental health initiatives.
    Of late, the DoD has released alarming statistics about the 
number of servicemembers who have committed suicide in the past 
year. According to a recently released Associated Press 
article, last year, the largest number of suicides of active-
duty Army servicemembers occurred in 26 years.
    Because of suicides among the veterans for whom we care, I 
directed the hiring of suicide prevention counselors at each of 
our 153 major medical centers and they are now on station. This 
was intended to strengthen one of the Nation's largest mental 
health programs.
    I also directed the establishment of an around-the-clock 
national suicide prevention hotline. The hotline became 
operational in late July of this year and has now received over 
4,500 telephone calls. And as a result of these calls to these 
suicide prevention hotline professionals, 165 veterans have 
been admitted to VA mental health treatment programs as a 
result of this new line of communication.
    I want to mention IT transformation which transcends all of 
the things that we do. The structure of a large agency such as 
the VA must of necessity be adjusted over time to ensure that 
the institution can be responsive to its mission and the ever-
changing demands thereunder.
    Significantly the long, decentralized VA information 
technology structure needed to be updated and in my opinion 
centralized, and that opinion was supported by that of experts 
consultants.
    So in 2006, we launched a major information technology 
transformation and consolidation or centralization. 
Significantly this will govern the way the VA uses and 
safeguards veterans' personal health information. With identity 
theft being among the fastest-growing crimes in the country 
today, this consolidation and the resulting heightened security 
of personal identifying information will make the VA the gold 
standard in the realm of information privacy and security.
    In addition to the traditional VA missions relating to 
healthcare and benefits, the VA has a fourth mission worth 
mentioning which is to provide support to the country in the 
event of a national disaster. This is authorized through the 
``Stafford Disaster Relief and Emergency Assistance Act'' and 
implemented through the National Medical Disaster Plan.
    We spent a great deal of time in our operation in training 
and planning for this mission and we have now created, thanks 
to legislation that you gave us, a new Office of Operation 
Security and Preparedness to deal with emergency planning and 
security. And it is charged with the planning for the 
continuity of government and the continuity of operations which 
for us, you can imagine as seeing over a million medical 
patients a week in the largest hospital system in operation, is 
an immense contingent responsibility.
    I would like to mention briefly another initiative that we 
have taken. And just today I signed the paperwork to come here 
to the Hill seeking from you the creation of an additional 
Assistant Secretary of VA for Acquisition, Logistics, and 
Construction.
    Each year, the VA spends billions of dollars for products 
and services. And each year, there are new additional VA 
medical centers put into the planning process for upgrading, 
modernization, or in some cases construction of new facilities.
    And with the VA's physical plant being on average 57 years 
old, plus the demographic shifts in the veteran population, it 
is essential, I believe, that the VA do all it can to update 
and modernize its facilities. Yet the cost of purchasing land, 
design, and construction of a new VA hospital today is in the 
range of $750 million. The magnitude of these numbers and the 
complexity of the acquisition processes indicate that there 
must be a very high level of competence and accountability in 
this mission.
    Let me mention that the National Cemetery Administration 
(NCA), in addition to the health and monetary benefits VA 
provides. NCA provides memorial benefits for our fallen 
veterans.
    In 2006, the NCA provided more than 330,000 headstones or 
markers for graves of veterans worldwide and currently 
maintains more than 2.8 million grave sites in 125 national 
cemeteries in 39 States and Puerto Rico, and, as most of you 
know, is in the largest expansion currently since the Civil 
War.
    In the area of frustrations and challenges, I would like in 
candor to bring up with you, the VA claims backlog. It is a 
complex issue.
    The VA can influence the output, that is the claims 
decided, but it cannot control the input. Quite the opposite, 
actually, because we have a very active outreach, soliciting 
more input. And in the midst of a war, more claims for service-
connected disabilities are being filed.
    In addition, veterans of previous conflicts have been 
filing claims at a higher number as they are reminded of 
incidents from their own military backgrounds by news reports 
of the current war.
    From fiscal year 2000 to 2006, receipts of disability 
compensation and pension claims rose from about 575,000 to 
830,000 and we expect to receive 835,000 claims this year. To 
control the output, we are hiring at a rapid rate additional 
staff. Since January of this year, we have already added 1,100 
new members to help us in our commitment to reduce the claims 
backlog and the time it takes to process a claim.
    The VBA is also working to consolidate suitable components 
of the work as has been recommended by the the U.S. Government 
Accountability Office to achieve efficiencies, more consistency 
in claims decisions, and better control over the process.
    Let me mention another area that has been of concern to you 
and received quite a bit of publicity and that is in the area 
of bonuses at the VA.
    Some months ago, it was noted that like every other 
government agency, the VA had paid bonuses to its senior 
executives. The bonuses were paid from a pool of funds created 
in accordance with statute and OPM regulations, that is Office 
of Personnel Management regulations, and the bonuses were 
determined by panels of senior executives acting in accord with 
these guidelines.
    The highest Senior Executive Service salary is about 
$165,000. A few bonuses in the amount of $30,000 were paid in 
recognition of the accomplishments of highly competent, long-
serving executives.
    Some criticized that one of those executives had been 
involved in the preparation of the fiscal year 2005 budget. And 
another holds a senior position in the VBA, the administration 
that continues to struggle with backlogs.
    Well, I have personally worked with both of those 
individuals and I have the highest regard for their ability and 
their prodigious work ethic. And I believe that the criticism 
leveled at each of them is unwarranted in that they encountered 
conditions beyond their control, having used their considerable 
skills to minimize the problems they encountered.
    So in closing, Mr. Chairman, I would like to end where I 
started by thanking you for allowing me to appear before the 
Committee to discuss the current state of affairs at the VA and 
many, many of the positive things that have occurred during my 
tenure as Secretary and to mention some that remain challenges.
    But working with you and Ranking Member Buyer and other 
Members of this Committee, I think we made tremendous progress. 
Together I think we have made the VA a stronger, more focused 
organization, focused on the very real needs of all of our 
veterans certainly, but especially those currently engaged as 
warriors in the Global War on Terror. It has been my pleasure 
to serve them as well as all veterans who have served before 
them.
    So I would like to thank you and the leadership of this 
Committee, the President, and the entire Congress because you 
have all collectively been very supportive of the VA on my 
watch. We have no excuses for lack of support from you and from 
the President.
    And, finally, I would like publicly to thank the employees 
of the VA. There are about 244,000 of them and they are, I 
think, an extraordinary group of people and they are bonded and 
motivated by a common denominator which is their affection for 
and their concern for America's veterans. And it has made me 
very proud as an American and a veteran to serve with them.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Nicholson appears on 
p. 28.]
    The Chairman. Thank you, Mr. Secretary. I think we can all 
agree with that evaluation.
    There is a famous Chinese curse, ``may you live in 
interesting times,'' and I think you were Secretary at a very 
interesting time. And working with your agency, you have met 
those challenges.
    Mr. Hall, would you like to----
    Mr. Hall. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for your service and for your 
testimony.
    And, Mr. Tuerk, Admiral Cooper, Dr. Kussman, Mr. Henke, and 
Mr. Hutter, thank you all for being here and for your service 
as well.
    If you will excuse me, I will start with a parochial 
question which is regarding the Montrose VA Center in my 
district, New York's 19th. I am just curious.
    I know the County Executive has requested a meeting with 
you, County Executive Andy Spano from Westchester County, about 
his concept for a veterans village which would incorporate 
continuing full healthcare facility with independent living, 
assisted living, nursing care, and so forth, and other uses of 
that facility which he is proposing along with the Town of 
Portland which it resides within.
    And a number of us representatives in the New York 
Delegation from that area had written to you, I am sure you 
remember, asking if you would hear him out before making a 
decision that would preclude that kind of use of the Montrose 
campus. I am just curious if you have met with him or had an 
opinion on that yet.
    Secretary Nicholson. I have not met with him, Congressman, 
but I know that I have gotten a letter requesting a meeting. I 
do not know where it is in the scheduling system.
    I am very familiar with the situation at Montrose and 
Castle Point. I have been there twice and I think I know the 
issues well. I would be happy to meet with him.
    Mr. Hall. Well, I will try to make sure that he gets down 
here before you are on to your next position.
    And your statements on the bonuses are well taken. And I 
just wanted to ask, given your description of good people doing 
the best they can and working with a prodigious work ethic and 
so on and conditions being beyond their control, is there a 
responsibility somewhere or is this just beyond all of our 
control? Is this something that we or the Administration, you 
know, those of us in Congress should have done differently or 
should now be looking to do differently to make it within our 
control?
    Secretary Nicholson. No. I do not think that these things 
are beyond our control or that there are people without 
responsibility. Ultimately, I have the responsibility.
    And in the area of the claims backlog, I have tried to 
cover that briefly in my opening remarks. And I will say that I 
think that we can bring that time down. It is currently taking 
about 180 days and I think that, practically speaking, we can 
get that down to 145-150 days. And we have a path we have 
created to do that, or assuming the input remains relatively 
stable which is at a very high rate.
    But there is an irreconcilable expectation in that arena 
today given the current law and the way the courts have 
construed that law which is totally consistent with giving the 
benefit of the doubt to the veteran. And it is kind of 
detailed.
    But any time you need another document to try to confirm 
something and you contact a veteran, if you can find them and 
if the veteran can find it, it puts a tag of time onto that. 
They have 60 days within which to respond any time you do that.
    Mr. Hall. Right.
    Secretary Nicholson. So if we are going to leave it in that 
sort of modality, that is perforce going to be a pretty long 
process.
    Now, we have hired, I think, about 1,600 new claims 
evaluators in the budget that you have approved. It has gone to 
conference. I think there are another 1,100 that will be hired. 
We think the average time will come down to that 150-day area. 
Now, just a few years ago, it was at 220.
    Mr. Hall. Yeah. I appreciate your working on that and, you 
know, taking the ball and running with it. And I see the yellow 
light which means I am about to run out of time. So excuse me 
for interrupting.
    Secretary Nicholson. I just wonder if I could just finish 
the point.
    Mr. Hall. Sure.
    Secretary Nicholson. The person that was named, personally 
named in this incident is not responsible for this system. In 
fact, the opposite. This guy has really led and worked hard and 
I support him a hundred percent.
    Mr. Hall. Well, thank you for that endorsement.
    I just wanted to ask one last question which is whether you 
believe the traumatic brain injury capacity of the VA itself to 
be adequate at this point? Do you think we need to have outside 
private facilities involved because there are a number of them 
that I know of that are coming in offering to help and are 
asking to be included in treatment?
    Secretary Nicholson. I think that there is a place for 
both. I think that for the initial care and treatment of a 
severely brain damaged veteran, it is appropriate for them to 
be in our system and our polytrauma centers--we now have 21 of 
them, 4 for acute care. I am trying to get some geographic 
proximity for them and their families.
    But I think there are cases there for the long-term therapy 
treatment, maybe lifetime in some cases, it would be 
appropriate for them to use local providers for that treatment 
and therapy because they are right there in their community. 
And the VA can do that.
    Mr. Hall. Thank you very much, sir.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Secretary, I echo the comments of my colleagues who 
have thanked you for your service at VA. We have all enjoyed 
having the opportunity of knowing you in your current capacity, 
your prior capacity, and look forward to working with you in 
the future and folks at VA.
    Personally I am very thankful for the issues that we have 
worked on together for the 1st Congressional District in 
Florida. Even though you will not be the Secretary when the 
doors are opened on 2 CBOCs that will open next spring, please 
accept this as a personal invitation. We would love to see you 
come back through northwest Florida.
    One issue that I think you and I both agree that we 
disagree and I probably more vehemently so than you is the 
issue of New Orleans and the decision to site the current 
facility downtown in Orleans Parish.
    I still think it is a huge mistake and hope that this 
Committee, Mr. Chairman, will have an opportunity to debate it 
fully when we look at the authorization, continued 
authorization and funding of that particular facility in New 
Orleans.
    In tagging on to some of the comments that you made to Mr. 
Hall in regards to the backlog and how long it has been taking, 
I have been on this Committee now 6 years and every time 
somebody comes and comments to this Committee, we hear the 
number is going down, but still, 150 days is an awful long 
time.
    I would love to see VA go in and do an overkill instead of 
making sure we have just enough people in order to make sure 
things work, that we may have in this instance maybe too many 
people which may thereby give an advantage to the veterans in a 
situation.
    I do not want to categorize it as excuses, excuses, but 
everybody that comes and testifies does bring a new opinion for 
the reason that we continue to have the delays. And I do not 
think any of us here, and certainly I do not believe you feel 
that they are acceptable. We salute you on bringing the number 
down considerably, and if you could comment on that.
    My first question is even though you are departing, I know 
you have been looking at goals for 2008 with VA and certainly 
recommendations to the next Secretary when they come in, what 
would you say the top 3 goals for VA would be for the next 
year?
    Secretary Nicholson. Well, this area of claims would 
certainly be at the top, to continue to work. You know, we are 
going to hire 3,100 new staff in that area this year and next 
year. And we are experimenting with ways that we can automate 
this system. So in a generic response, I would say that needs a 
great amount of continued command focus.
    Another is for the leader of the VA to continue to 
emphasize greatly that transitional demands of a wartime 
environment for the warriors coming from DoD to the VA and the 
need for an efficient, effective way for that to happen. Now, I 
think we have gotten pretty good at that, but we still run into 
the exceptions. And we have taken a lot of measures to try to 
perfect that, but that finally, I think, would need a great 
deal of their attention.
    And, thirdly, the physical plant, it is a huge organization 
and it is aging. And I just yesterday had a meeting with people 
in the White House to talk about alternative ways to finance VA 
facilities. And I think that we need to start thinking outside 
of the box about how we are going to do that because you know 
the methodology as well as I do.
    But the VA has not delivered a new hospital, it has not 
commenced a new hospital in its planning stages for almost 20 
years. And now we are going to have one in Las Vegas in 
hopefully a couple years or so and that will be the first new 
hospital the VA will have delivered in 20 years.
    And the plant keeps aging and inflation keeps going up. 
Replacement costs keep going up. So we have to think of a new 
way, I think, to finance hospitals. Just like you have done 
with military housing, just like you do with the U.S. General 
Services Administration office buildings, the VA needs new 
tools and I am going to do my best for what it is worth to 
implore my replacement to pick up that cudgel and continue to 
carry it.
    At this point, we have not come up here with that very much 
because we are having a lot of engagement with the executive 
branch and the Office of Management and Budget on that. That is 
a very important point.
    The Chairman. Thank you.
    Mr. Hare.
    Mr. Hare. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. Just a couple of issues that I 
would like to talk to you about here.
    One of the things that I am, as my friend, Mr. Miller, was 
talking about, is in terms of overkill on these disability 
backlogs. You know, I am wondering why don't we treat our 
veterans as we treat average taxpayers on this claim business. 
They file the claim. We process the claim. If there is an audit 
for the claim--I mean, I really believe and I hope that this 
Committee will come up with some legislation to err on the side 
of the veteran and not so much on the VA.
    My fear is hiring people is a great idea and hiring 
additional people, but it takes time for those folks to get 
trained. And still the ideal thing going from 180 to 145 puts 
our veterans at still 145 days of waiting. One question I would 
like is maybe get your thoughts on saying if a veteran files a 
claim, I really believe that 99.9999 percent of the veterans 
who are going to file disability claims are not trying to take 
one over on the government. And why we cannot expedite that 
process even if it is a partial payment of the claim until that 
claim gets adjudicated.
    The other part of that is, as you know, sometimes in the 
appeals process that could go on for a long, long time, if the 
veteran dies, his or her spouse has to start all over again at 
square one to pick that claim up. And it seems to me that we 
can do better.
    The other issue, and I just want to get some thoughts, and 
the second issue is we had some disturbing testimony here from 
a young Marine and it was the story that ABC News had done 
about the VA or Department of Defense, whoever, identifying 
almost 22,000 soldiers who the claim was they had preexisting 
conditions. This young man, it took him 5 attempts to get his 
disability and he had gotten a Purple Heart and then they 
wanted, you know, $3,000 of his enlistment bonus back.
    I am wondering, there again, would you share the feeling 
that we ought to have a moratorium put on this immediately so 
that we do not have additional vets who are being wounded? And 
as I said to him at the hearing, I am amazed that they did not 
ask for your Purple Heart back in the process too.
    And this man, by the way, Mr. Secretary was screened 3 
times prior to deployment. And my question when one of the 
witnesses was here, I said how did 22 or 23 thousand people get 
through the system with supposedly personality disorders.
    And I think what happens with a lot of veterans is they 
have a backlog claims process, and this may or may not be the 
case, I do not know, but to them, to the veterans I have talked 
to, they said this is just another way of them dragging it out 
so we cannot get our disability. And it would appear on the 
surface that they are getting taken for a ride.
    So I wonder if you maybe would be willing to comment on 
both of those and see if there is any support from you or the 
VA or hopefully, someone that follows you.
    Secretary Nicholson. Let me comment first on your question 
about the presumption. I happen to share that view and I have 
been an advocate of that on a pilot basis. I have not been able 
to sell it internally.
    And I will tell you that the veterans service organizations 
(VSOs) are not totally concurrent on it either and I have met 
with them and discussed it. But I think that would very much 
speed it up and then we could go back and audit and, you know, 
make spot checks like an Internal Revenue Service tax refund so 
that you have integrity in the system.
    The other issue that you raised, Congressman, I think that 
that is mostly a DoD issue in those preexisting conditions. But 
having said that, I will tell you, because I am extremely 
involved in the work of the Dole-Shalala Commission, and they 
will be coming here to the Congress, I think tomorrow, and you 
will hear their recommendations. And I think the most 
significant part of their 6 main recommendations is that on the 
reformation of the disability system and trying to do away with 
the repetition between DoD and VA, streamline it.
    I think they have some very, very good ideas in there. Some 
of those are controversial and you will see that, but that will 
greatly accelerate this never-never land that a young person is 
put in when they are injured about whether they are fit to stay 
on military duty. If not, what is their amount of compensation. 
That will come to the VA to make that decision from DoD.
    I do not really want to preempt that, but I want also to 
remind you that, I mean, this business about the VA trying to 
delay a claim so that it will go away or somebody will--that is 
apocryphal.
    First of all, our priority is on the current warriors and 
that is taking about 100 to 110 days.
    Secondly, any veteran who files a claim and is successful 
is paid from the day they filed the claim. It is paid 
retroactively to that day.
    Thirdly, in this body of claims, 55 percent of them are 
people who already are getting compensation from the VA system 
and they want it to be upped and that is their right. I am not 
contesting that.
    And, fourth, we have a priority also for claimants who are 
70 years old or older because they are getting a little older, 
so they are a priority.
    Mr. Hare. Just one quick thing. I agree with you, Mr. 
Secretary. I do not think the VA, and I did not want to imply 
that, but from the veterans who are out there and they are 
struggling with the claim backlog as it is, you know, the anger 
is driving this is in terms of, well, nobody wants to help me 
out. So I know the VA is doing the best it can given what we 
have been able to give you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Hare.
    Mr. Boozman? And, again, thank you for participating in 
that very interesting and emotional trip to Iraq and 
Afghanistan with the Secretary and myself.
    Mr. Boozman. Thank you, Mr. Chairman. Thank you for 
inviting me. It was truly a very beneficial trip for me and 
enjoyed being with you guys.
    I just want to thank you very quickly. You have had an 
interesting career being in the military and in being a very 
successful businessman and taking those talents and using them 
for government service.
    And I do not know where you are going to be led to wind up 
next, but I feel sure that you will continue to use those 
talents for the benefit of your country. And so we really do 
appreciate you.
    The other is I would like to say as somebody that has been 
real involved myself and Ms. Herseth Sandlin on the Economic 
Opportunity Subcommittee, we have all been working very hard to 
try and get veterans to work, you know, to try and get their 
education benefits and trying to provide some flexibility. And 
we are going to continue to do that. But I do appreciate the 
level of cooperation.
    I think, we, you know, working together really have 
achieved a lot. I firmly believe if we can get veterans, get 
them separated, get them, you know, where they are gainfully 
employed, not employed, but employed to their abilities that 
that really does prevent a lot of problems down the line. So, 
again, I appreciate the level of cooperation.
    One thing that we are hearing a lot about, one thing that I 
am in favor of is trying to expand the level of service to 
additional veterans, you know, veterans maybe that have fallen 
through the cracks, that we are unable to serve now. There is a 
move in Congress to perhaps include those in the future.
    My concern is as we do that is that we are not prepared for 
that. We do not really have good data. If we add additional 
people into the ranks that can get benefits through the 
healthcare system, what that will do to the present system. We 
have all worked so hard to get our numbers down, you know, 
where people are being seen as best we can on a timely basis 
and things.
    Can you comment about that and maybe some of the things 
that you see that we need to do to prepare for that or at least 
have the information that if we do extend, you know, the sevens 
and eights, whatever, what that would do as far as the system 
in preparing? You mentioned that we had not built a new or we 
had not really had the new facilities online. You know, we are 
doing in Las Vegas.
    But I guess what I would like is just some sort of an 
observation as a guy that has been fighting the battle, you 
know, of how we can go about logically planning for that if we 
do decide to hopefully extend the ability of the people to have 
access to veterans' care. Does that make sense?
    Secretary Nicholson. Is the sense of your question, 
Congressman, how we can make it available to more veterans?
    Mr. Boozman. Well, yes. If Congress does, if we go forward, 
you know, we make it available, what is that going to do to our 
system? How can we plan to have enough hospital space, enough 
outpatient space so that we do not--you know, we do a good 
thing? We have got veterans coming on, but we do a bad thing in 
creating longer lines, you know, longer--and in that point, we 
do not service anybody well.
    Secretary Nicholson. I understand. Well, you know, so much 
of this is resource driven and so it would depend on ultimately 
the amount of resources that we could get to bring to bear on 
that if the decision is made to open it up for more veterans.
    There are about 25 million living veterans in the country 
today. We have nearly 8 million enrolled for our healthcare 
system. We are paying benefits to about 3.6 million.
    So you can see that there is still a lot of, as they say in 
the private world, a lot of market share out there that 
potentially could come to the VA. And then it would be a 
question of what it would take to still maintain the kind of 
priorities that we have which are for the veterans that are the 
most seriously injured, those that are indigent, down on their 
luck, special medical needs, and service-connected injuries.
    I think that if there was going to be a decision to greatly 
expand the VA that there is definitely a need for a lot of new 
hospitals, both hospitals to be replaced and then there are 
places that would need new hospitals.
    But we could do a lot and are doing a lot with this great 
clinic system, this preventative medical system which is really 
the chief characteristic of VA medicine. And it distinguishes 
itself from civilian medicine because, unfortunately in the 
civilian medical world, there is not a financial incentive for 
good preventative medicine. There is really nobody to pay for 
it.
    Mr. Boozman. Right.
    Secretary Nicholson. Insurers, Medicaid, Medicare, they do 
not pay for it. At the VA, we emphasize it which is another 
reason that we can take care of so many people so economically 
on a per-patient per-year basis.
    And I think that that characteristic could be maintained if 
it was greatly expanded, but the base facilities would also 
have to be. So the physical plant and then, of course, the 
accompanying personnel expansion would have to follow. But it 
is doable.
    Mr. Boozman. Thank you very much. Again, I appreciate you 
and appreciate the leadership and service that you provided, 
you know, as heading the VA. Thank you.
    The Chairman. Thank you.
    Mr. Salazar.
    Mr. Salazar. Thank you, Mr. Chairman.
    And, Mr. Secretary, I want to especially thank you for your 
friendship and the great working relationship that we have had 
over the years and you being a fellow Coloradan and all. And I 
want to thank you for your service to this great country.
    Let me just ask you a couple of things specific to 
Colorado. I know that we have been working on Fitzsimmons 
Hospital and I understand that Ms. Berkley already is getting 
hers in Nevada, of course. Senator Reid has----
    The Chairman. We are going to reconsider that, I think.
    Mr. Salazar. Don't say that. We should make that a 
priority, of course. And, you know, this morning, I got a call 
from Soldiers Home in Monte Vista, Colorado, and you are well 
aware of that facility. It is an old facility, was badly needed 
as far as it is falling apart. And we need the additional funds 
for the construction of trying to rehabilitate it.
    And we have been in constant contact with Mr. Tuerk on the 
new national cemetery that we are proposing for El Paso County 
in Mr. Lamborn's district and we passed legislation out of this 
Committee and out of the House, and would certainly urge you to 
support those issues before you leave.
    And I look forward to working with you in the future and 
just wanted to thank you very much.
    Secretary Nicholson. Thank you.
    The Chairman. Mr. Brown.
    Mr. Brown of South Carolina. Thank you, Mr. Chairman.
    And I also would echo the same remarks, Mr. Secretary. We 
are grateful for your service, of your background not only in 
VA but your service in Vietnam and other contributions you have 
made. And we are grateful for your willingness to take on the 
leadership of the VA.
    We are grateful for the opportunity that we have had to 
spend together touring the Gulf after Katrina and Rita, and 
also your willingness to look outside the box on healthcare 
delivery.
    I know that Congressman Boozman was talking about what is 
going to happen when, you know, the needs of the VA continues 
to rise. We looked at what we are looking at now, the VA 
Medical University partnership and we are grateful for your 
openness there.
    I know Dr. Kussman was down last week to look at the ways 
we might be able to unite some services not only just in 
Charleston but around the country.
    But also the VA health clinic that is being built up in 
Goose Creek region. There is a DoD/VA sharing clinic which is 
another opportunity to maximize, I guess, the resources and 
assets that the VA has.
    We just wish you well wherever your next step might be and 
we are grateful for whatever you might be able to do to 
continue to enhance the sharing opportunity because we 
recognize that, you know, building is expensive and certainly 
some of the research equipment is awfully expensive, 
particularly as we deal with some of our most critically 
injured veterans, you know, with the brain injuries, with the 
loss of limbs.
    We are in a different kind of environment than we have ever 
been. And so we need to look at ways we can better, you know, 
use our resources. And I think sharing between the teaching 
hospitals and DoD and VA all working together, I think, is the 
way to do it.
    And thanks for your leadership along those lines.
    And thank you, Dr. Kussman, for your leadership too.
    The Chairman. Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman.
    And a special thank you to you, Mr. Secretary. I would echo 
what you have heard from everyone here. And your commitment to 
this country, your service both in uniform and now in the VA is 
something all of us can strive for.
    And I know that you and I share the same goals in that that 
organization of the VA is one of the critical agencies in this 
government. And our goal is to provide the highest quality care 
and benefits to our Nation's servicemembers that we possibly 
can.
    And I complimented you on that and I have said that long 
before you said you were going to retire, so you know where I 
stand on that.
    I also have complimented what needs to be complimented. But 
just like you, those of us who care deeply about this issue 
also know that our job is oversight and it is to be critical 
where we are not making progress.
    And I want to especially thank you for taking the time to 
invite me over to your office to talk about these issues where 
we had differences and passed on some of your knowledge about 
leadership and how these things work. As a new Member here and 
in my 8 months of infinite wisdom, I appreciate someone taking 
a little time to do that.
    And I think it was very healthy. And one of the things that 
came out of that is we agreed to communicate. So I appreciate 
that.
    I am very proud to sit on this Committee. I am very proud 
that I think we passed a budget this year that reflects the 
needs of our veterans.
    We all know the reality of this, that many of these things 
do take on political rhetoric. This piece of legislation, 
though, by the way, the Military Construction and VA 
appropriations bill passed 409 to 2 in the House of 
Representatives.
    It did not stop the President from giving us a veto threat 
early on. But since that time, he has withdrawn that and I am 
appreciative of that.
    I just had 2 things and I guess I know you have always 
spoken freely here, but you are in kind of a unique position. 
These may be some of the last questions you have to take 
standing here in front of Congress.
    But just to pass on your wisdom, if you have the ability 
to, I heard you talking about this issue of facilities 
construction. You and I know that this is really at the heart 
of many of the debates happening in this country, how we are 
going to fund infrastructure, what is the role of government in 
this.
    And I tend to be where you are at on this, that I think 
everything should be on the table. Unfortunately, many of us 
feel like not everything is on the table. I hear you talking 
public-private partnerships. I am sure willing to look at it. I 
am sure willing to listen on that.
    One of our concerns is that we are seeing, that we feel in 
many cases, maybe the choice is some of these issues that 
should have been on the table and if we have got a need to 
construct VA facilities, I would argue that the American public 
would like to make the decision that possibly their tax dollars 
could go to building those and that maybe we do not need to 
move into the future bonding or whatever it would be. But 
perhaps it could be.
    And I think it is refreshing that you bring that up. I 
think it is refreshing that you are pushing it. I hope, though, 
that that runs both ways with the Administration, that they are 
willing to look where we are at on this about prioritizing.
    My one question to you on this, and I know this is a big 
one and it lays out there, but it is one that I wish we could 
throw out there and decide, the issue of mandatory funding, 
where you would come down on this.
    Would this help make VA's ability to budget for multiple 
years easier? Would this help us address this issue of where we 
see the ups and downs of the cycle of funding versus need? 
Would the mandatory funding in some manner or some mechanism in 
your opinion, is that the right way to go?
    And I just leave that. I know it is a big one. It is broad. 
But you have got vast knowledge in this and I am interested to 
hear.
    Secretary Nicholson. Of course, that came up when I began 
to be briefed on this job before my hearings and people came 
around to brief me. And so I try to take sort of an objective 
look at it and see if it just was not, you know, a partisan, 
sort of philosophic view, and have done that.
    And I conclude that I do not think it would be a good idea 
for the VA. In many ways, it would be much easier for the 
Secretary of the VA and a lot of these senior staff guys 
because it would be formulaic, but this is a dynamic 
organization that is subject to the slings of demand that come 
for things like wars. It could come from epidemics, other 
things.
    And as difficult as it is to project needs, and we have a 
very sophisticated modeling program that we use, you still need 
to do that. I do not think you can be looking back with some 
formula to decide what you are going to need in the future. And 
there is a lot to this, Congressman Walz.
    But I would also say, and this is just gratuitous on my 
part because it is really your bailiwick, but I do not think it 
would give you as good oversight as you now have over the VA 
and overspending.
    Mr. Walz. Well, thank you again, Mr. Secretary. I 
appreciate your wisdom on this. And, once again, we cannot say 
it enough, your willingness to take this job and to take this 
on at this time in our Nation's history should be commended. 
And I appreciate what you have done.
    Secretary Nicholson. Thank you.
    The Chairman. Ms. Herseth Sandlin. I will get that right 
some day. Stephanie, you are on.
    Ms. Herseth Sandlin. That is great. Okay. Thank you, Mr. 
Chairman.
    Mr. Secretary, as you prepare to leave in the upcoming 
weeks, I, too, want to echo the sentiments of those who have 
expressed appreciation for your service as Secretary of the 
Department, your prior military service, the service to the 
country in other capacities. We wish you well.
    And you have been always gracious in answering all of our 
questions and staying well beyond sometimes when others in the 
second or third round have posed issues to you and worked with 
us in a more informal setting.
    And all the folks that are accompanying you today, we 
appreciate how closely and well they have worked with you in 
the last over 2\1/2\ years in your capacity as Secretary.
    I have just a couple of questions. The first one relates to 
a circumstance that a constituent of mine experienced. He 
suffered a devastating traumatic brain injury while serving 
Iraq.
    Well, his wife and mother who were helping take care of him 
during rehabilitation and traveling from South Dakota to 
California where he was getting his rehabilitation were looking 
into and doing a lot of research on benefits that would be 
available in preparation for their return home and one of those 
was the specially adaptive housing benefits that the VA 
provides.
    And we had passed in the Committee legislation back that 
was signed into law in 2003 that permitted disabled 
transitioning servicemembers to apply for those adaptive 
housing benefits.
    And so when my constituent's family started making the 
inquiries, they were told that, no, he could not apply. And 
they actually did the research and had to share the statute and 
the information with the folks, with the VA.
    Now, again, I know we have made a lot of changes both 
statutory and some regulations over the last 2, 3, 4 years, but 
this circumstance led me to sort of wonder, and that is my 
question to you, what does the VA do to ensure that employees 
are as up-to-date as possible on recent changes, either 
statutory or regulatory, to the benefits so that when questions 
like that are raised, they do not get misinformation to begin 
with and have to come back and actually extend the process of 
applying?
    Secretary Nicholson. Well, I am sorry to hear about that 
case. I will speak generally and then ask Admiral Cooper to 
address the specific piece of that benefit.
    We have a constant teaching/learning facility using a lot 
of the virtual capabilities that we have created for people to 
be schooled on these things. We have a lot of workshops, 
conferences, and so forth. And we have a lot of new people that 
come in all the time. But the older cadre are relied upon to 
keep them current on what these regulations are.
    So I do not understand why that would have happened, but I 
will ask Admiral Cooper if he has anything more specific he 
could add.
    Admiral Cooper. Unfortunately, I do not. I would really 
like to find out the name of this person to understand it 
completely.
    We are very strong on training. Our Loan Guaranty Program 
is a very, very good program. And, yes, there are changes, but 
we attempt to notify employees about those changes as soon as 
possible.
    I am very sorry to hear about this and will look into it as 
soon as possible.
    Ms. Herseth Sandlin. I appreciate that. So when the changes 
are made and, as you said, Mr. Secretary, in kind of the 
virtual environment of the Internet and sharing this 
information with employees across the country and the different 
offices that are administrating the different benefit programs, 
is there a period of time in which the change is kept where an 
employee has access to some sort of Web site or link where the 
recent changes are maintained?
    Secretary Nicholson. Absolutely.
    Ms. Herseth Sandlin. Okay.
    Secretary Nicholson. Absolutely. It is on the Web site. We 
put out specific letters telling them as soon as it is 
effective what is effective and the procedures that they should 
follow.
    Ms. Herseth Sandlin. Okay. I appreciate that.
    And then, Mr. Secretary, on the issue of mental health for 
our veterans and the number of cases of PTSD that many veterans 
of past wars as well as those that have been identified 
returning from Iraq and Afghanistan, I know that over the last 
couple of years, we have worked with you to identify just what 
resources are necessary to ensure timely diagnosis and 
effective treatment throughout the VA medical centers.
    And I do not know if you have this information on hand 
today. But if you or someone could get back to us with the 
number of caseworkers versus the number of upper-level 
management that have been hired over the last 2 years to 
specifically address PTSD because, unfortunately, I have heard, 
and, again, this is anecdotal and that is why we hope it is not 
a trend at other medical facilities, but then when additional 
resources became available to help treat PTSD that the hiring 
that followed actually was more in supervisory and upper level 
management versus the caseworkers and so it did not spread out 
the load in terms of the number of cases coming into the VA 
medical centers.
    So if we could perhaps get the numbers system-wide of the 
hires over the last 2 years with that increase in resources.
    And then a just final thank you, Mr. Secretary, for 
approving so many CBOCs. We have 2 now in South Dakota that 
everyone is very excited about, in Wagner and Watertown, as 
well as others. I think that they serve so many veterans not 
just in rural areas but certainly the focus on preventive care 
as you mentioned, I think it has just been a great service to 
reduce the travel time and to have folks locally that people 
are familiar with oftentimes that are working in these clinics.
    So thank you very much for that.
    Secretary Nicholson. Well, thank you, Congresswoman. I do 
not have that breakdown between supervisory and clinicians or 
practitioners. We will get that. I can give you kind of an 
overview.
    We have greatly expanded our mental health capabilities in 
the last 3 years and our budget is now up to $3 billion that 
you have provided. And we have over 9,000 clinicians working in 
mental health now in the system. And a lot of that is geared 
toward this post traumatic stress disorder need that we are 
seeing coming back from this war.
    So, we think we are doing well. We have trouble hiring in 
some places mental health clinicians. One, they either do not 
want to live there or there just are not any. You know, they 
are short in that region and we are having to pay some 
incentives to some people to come with us. But we will get you 
that breakdown.
    [The following was subsequently received:]

          Since VA began implementing its Mental Health Strategic Plan 
        in 2005, VA senior leadership has emphasized that Mental Health 
        Enhancement funds be used primarily to hire permanent clinical 
        staff to provide direct clinical care. Since 2005, VA has 
        funded 4,300 new mental health positions; 3,800 of these 
        positions are direct clinical service positions. The remaining 
        500 positions are administrative or support positions. For 
        Post-Traumatic Stress Disorder (PTSD)-specific initiatives, 350 
        new positions have been funded. 307 of these positions are for 
        direct clinical service providers that generate clinical 
        workload. As of August 31, 2007, 323 of the positions funded 
        for the PTSD-specific initiatives have been hired. In addition 
        to the specialized PTSD initiatives, many of the other Mental 
        Health Enhancement Initiatives (e.g., OEF-OIF-related 
        initiatives, Primary Care-Mental Health Integrated Care 
        initiatives) involve the provision of mental healthcare and 
        outreach services to patients with PTSD.

    The Chairman. Thank you.
    I should tell you, Ms. Berkley, that the Secretary said 
just before the hearing that we found out that Las Vegas was 
not the fastest growing place where veterans are and we have 
moved the hospital to that place. I think it is in Arkansas or 
something like that.
    Ms. Berkley. It would be a cheap and ugly scene if you did 
that.
    The Chairman. But we thank you for your hard work over many 
years for a hospital. We are grateful that we are finally 
moving on this.
    Ms. Berkley. Thank you, Mr. Chairman.
    Firstly, let me add my thanks to the rest of the 
Committee's good wishes for you in your future. It was a 
pleasure getting to know you and your wonderful wife quite a 
bit better when we traveled to the veterans cemeteries 
throughout Europe. It was a remarkable week and I appreciated 
you allowing me to go along.
    I hope you realize that all of the times that I have driven 
you to the point of distraction, driven you crazy for that VA 
hospital, a long-term care facility and outpatient clinic was 
because of the desperate need in my district that continues to 
this day.
    There are a couple of points I want to make. One is, do you 
think it is possible for you to send one of your upper level 
people to come to the office and give me a briefing on what is 
happening out there? I have been out there, of course, myself. 
There is a lot of movement of dirt.
    But this way, when your successor takes that seat, I could 
be completely up-to-date on what is happening and what the 
expectations are and when we can expect a conclusion of those 
facilities. It cannot come, as you know, a moment too soon. 
That is number one.
    I am very concerned about the continued funding of the VA 
and the needs that our veterans have. I mean, we talk about 
Social Security and we talk about Medicare and the needs and 
the strains on the system as the baby boomers start retiring.
    But I think there is another area that we are going to have 
to be very concerned and that is continued funding for the VA 
so that we can adequately take care of these veterans between 
the infrastructure needs, additional hospitals, and being able 
to take care of the healthcare needs of our returning veterans, 
many of them, at least 20,000 is the latest number I have, that 
have been wounded in Iraq.
    This is an obligation we are going to have for many, many 
decades to come and we are going to need to know how to fund 
this. And if it is not by mandatory funding, I do not know how 
we are going to continue with the strains on the system.
    I want to emphasize something that Ms. Herseth Sandlin said 
and it has to do with the PTSD situation. And I know that this 
Committee, we have had a lot of testimony. I know they have on 
the Senate side. I know you are very cognizant of it.
    But just in the last little while, I have lost 3 Nevadans 
to suicide. And there are a couple of points I want to make.
    One of them was a man named Justin Bailey and he came home. 
He was wounded physically and also obviously mentally. He was 
addicted. His parents insisted that he check himself into the 
West Los Angeles (LA) VA Center for treatment. Unfortunately, 
on January 25th, 2007, he came addicted and, yet, they treated 
him by giving him additional drugs including methadone. And the 
next day, he overdosed. And perhaps that was not a suicide, but 
it was an overdose due to excessive medication.
    Justin's parents have testified in front of the Senate. 
They have not testified here, although they would be willing 
to. But they made 2 points. One is the cavalier attitude, that 
they felt they were treated in a very cavalier manner when they 
went to the West LA VA facility. They were handed his 
belongings in a trash bag and it was a very unfortunate 
situation.
    But I am more concerned now. Because of Mr. Bailey's 
testimony in front of the Senate, the VA developed, which I 
think is a very good thing, the Domiciliary Residential Rehab 
Treatment Program model. And $4 million has been appropriated 
for this and it is supposed to be a model for 32 other programs 
throughout the United States.
    But the program would provide additional staff, evaluation, 
placement of patients, integration, coordination of services, 
medical management, as well as security to keep an eye on these 
people that are having these problems.
    But I am kind of concerned about a few things. One is 
oversight. Who is going to be monitoring this program to make 
sure that it is actually working before we move it to the other 
32? Are there going to be periodic reviews? Are there audits? 
Is the current leadership qualified to oversee this model 
program? And what can we do to make sure that other families do 
not suffer the way the Baileys have?
    There is something else and I will not mention his name. I 
will tell it to you later. Last month, they went to West LA VA 
Hospital, met with the Chief of Staff there to discuss this 
issue and how they were going to implement the model program, 
felt that the gentleman they spoke to, the Chief of Staff, was 
completely unprepared for the meeting that they had traveled to 
LA for, and did not seem to know anything about the Bailey case 
and about the model program. And they were very concerned about 
that because they have traveled to Washington a number of times 
and felt that they wasted a trip to LA, that he was not 
prepared to meet with them.
    There was another problem, and I know that this is not 
directly with the VA because we have got DoD issues and VA 
issues, but I had another young Nevadan from Pahrump. His 
family just buried him a couple of weeks ago. But he told the 
Army he was having some serious mental problems. He did not 
want to go back. He was on leave. He told his grandmother who 
he was living with he did not want to go back. The Army treated 
him with Prozac. He went back and he blew his brains out.
    And I am concerned that we are seeing more and more of this 
situation and what are we going to be doing. If they get out of 
the military in once piece, what are we going to do in the VA 
to be dealing with these issues? I mean, these young men and 
women are coming home seriously emotionally crippled.
    Secretary Nicholson. Well, thank you, Congresswoman. Let me 
address your question about the status. I sort of anticipated 
you might ask me. So I actually have that here, but I can read 
it. But maybe I will hand it to you and we can have someone 
come and see if you want it in more detail.
    The Bailey case, I am familiar with that case. In fact, I 
went on a visit to the West LA Hospital and discussed that with 
personnel on the ground there. That is why I am surprised that 
the Chief of Staff did not know because he did know about it.
    We sent the Inspector General there. We sent the Chief 
Medical Inspector out there to look at that. I mean, it looks 
like it was an unfortunate case. There are some parts about it 
that I cannot say that is in the record, his medical record, so 
I cannot divulge. But my point of view is it was a very 
unfortunate, sad case.
    I might ask Dr. Kussman to respond to some of your specific 
questions. But like any VA program, this model program that we 
are now setting up needs to be managed. It needs to be watched, 
monitored. It needs oversight which I welcome continually 
because these are human beings often very separated from the 
flagpole out there expected to do their jobs and most of them 
do.
    But we have established performance standards. We hold them 
to those standards. They are reviewed. Those are the ways we 
try to get good results which we generally do.
    But, Mike, if you have anything to add.
    Ms. Berkley. Mr. Secretary, let me just correct something 
that I said. He knew about the Bailey case. It is just they did 
not feel that he was prepared to sit down and speak with them 
when they met with him. It just seemed that he was not--this 
was their interpretation--he really was not connected to what 
they were talking about. And I think they were expecting more 
concrete answers from him and more information regarding the 
program. And he did not seem to have it at his fingertips.
    Dr. Kussman. Let me just add to what the Secretary said. 
Obviously it is a very sad case. I cannot talk about the 
specifics as you are well aware of.
    I was aware of the seemingly callousness of the way that 
the family was treated. And for that right up front, we 
personally and professionally apologize for that. That was 
unacceptable, and tried to get that message back to the family. 
I was not aware of the recent event that you just described and 
we will certainly look at that.
    What we have tried to do so often when things do not go 
well is to learn from that and put together a plan. I have 
asked for a top to bottom look at our domiciliaries and our 
substance abuse programs. We are working on that. We want to 
test some of the programs. The people at West LA led some of 
it, so I am puzzled that the Chief of Staff would not have more 
concrete specifics, but I promise you we will look into that.
    Ms. Berkley. Let me just conclude. I am sorry, Mr. 
Chairman.
    Is there a way that we can do or are we working toward a 
seamless--we have people with PTSD. They are coming home. Is 
there a seamless transition? Are we moving toward a seamless 
transition between DoD and VA when it comes to identifying 
combat veterans that are coming home with PTSD problems? How do 
we identify this early enough that we can catch it and provide 
counseling and help before--I have another.
    The third case I did not tell you about came home, was 
living with his father. They knew he had problems. He blew his 
father's brains out and then he killed himself. That left the 
family devastated.
    Dr. Kussman. In many instances, it is not so much a 
seamless transition because a lot of times, particularly the 
National Guard and Reserve, when they leave they do not know 
they have it. They have not really surfaced because frequently 
it takes weeks to months after they are back home for the 
gremlins to start to act because when you come back, people are 
generally euphoric about the fact that they survived.
    And so we have put together a very aggressive outreach 
program. We screen all the people who come in to us for PTSD, 
traumatic brain injury, military sexual assault, and substance 
abuse whether they verbalize any of these symptoms or not, 
regardless of what they came for. And people are not going to 
come for PTSD frequently because they do not want to admit they 
have a problem.
    What we are trying to do is educate our staff for all the 
symptoms that people have. We have educated over 50,000 people 
of what to look for for TBI, PTSD, try to make it comfortable 
and convenient for people to come in a nonthreatening manner to 
make sure they feel that the symptoms they are having are not--
they are not crazy, if you will. These are in many instances 
normal responses to abnormal situations. A lot of times, they 
do not need a heck of a lot of support to get over that.
    The suicide issue that you raised is clearly an important 
thing. With the Secretary's leadership, we have suicide 
coordinators in all our facilities. We put in place a policy 
where anybody who calls us and raises an issue about mental 
health, they need an evaluation within 24 hours to make sure 
that we are not missing somebody who is dangerous to themselves 
or somebody else and then within 2 weeks, getting a full 
evaluation.
    So we are very sensitive to all the issues that you have 
raised.
    Ms. Berkley. Thank you.
    The Chairman. Thank you again. Mr. Secretary, any last 
words?
    Secretary Nicholson. No. Thank you again, Mr. Chairman, and 
to all the Members of the Committee. It has been a real 
pleasure and an honor to work with you for our veterans. I mean 
that most sincerely. Thank you.
    The Chairman. Thank you.
    I come from a Navy town, San Diego, and they always wish 
people, ``fair winds and following seas.'' I do not know what 
they do in the Army. So we wish you that, for you and Suzanne. 
And we again thank you for your service to our Nation.
    Secretary Nicholson. Thank you.
    The Chairman. And I just want to applaud one more time.
    [Applause.]
    [Whereupon, at 1:35 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

                 Prepared Statement of Hon. Bob Filner
             Chairman, Full Committee on Veterans' Affairs
    I would like to thank the Members of the Committee, Secretary 
Nicholson, and all those in the audience, for being here today. The VA 
is the second largest agency in the Federal government, and one of the 
most essential. For the way in which we treat our veterans has a direct 
impact on our ability to recruit men and women in the future, and is a reflection of the values and ideals we hold as a nation.
    The VA, with more than 245,000 employees, oversees the largest 
integrated healthcare system in the country and a vast array of 
benefits programs meant to compensate, however inadequately, the 
service and sacrifice of our 25 million veterans. And every day, driven 
by the pressure of new conflicts, the VA is asked to do more and more.
    Robert Kennedy, in his famous ``Day of Affirmation Speech'' in 
South Africa, stated that ``there is a Chinese curse which says `may he 
live in interesting times.' '' Secretary Nicholson's tenure at the VA 
may indeed be fairly characterized as an ``interesting time.''
    The VA has faced a $2 billion budget shortfall, a growing claims 
backlog, and a data breach involving 26.5 million veterans and active 
duty personnel, as well as an incident earlier this year in Birmingham, 
Alabama. The VA has made strides toward meeting its goal of being the 
``gold standard'' in IT security, but much work remains to be done.
    The VA is facing the issue of caring for our returning 
servicemembers, and the veterans of previous conflicts. The VA must 
rise to the challenge of meeting the needs of these veterans, 
especially in the areas of TBI care and PTSD treatment, maintaining its 
excellence in specialized services, and addressing access to care 
issues. These are challenges that we have worked on together, and that 
you will leave to your successor, but challenges we must meet as a 
nation.
    The VA healthcare system has also been lauded during the 
Secretary's tenure, for the excellence of its care, its innovative 
electronic medical records system, and its response to emergencies and 
disasters. Indeed, the VA healthcare system is often used as a model.
    Mr. Secretary, today, we hope to hear your views on your time at 
the VA, the challenges that face us in the future, and any guidance you 
can give us. We would like to hear how we can improve healthcare and 
benefits for our veterans, while fully addressing quality, access, and 
timeliness issues.
    We would like to hear the progress the VA has made in working more 
closely with the Department of Defense in addressing the 
recommendations made in the wake of the Walter Reed scandal. And we 
hope to hear about the transition plans the Department has in place to 
make sure leadership is provided at the highest levels for our 
veterans.
    We, on this Committee, wish to thank you Mr. Secretary, as well as 
the employees of the VA, for the devotion to veterans that you all 
demonstrate day after day. On a personal note, I also wish to take a 
moment to thank you.
    Over the course of this year we put aside our past differences and 
have worked closely together to help veterans. And at the end of the 
day, regardless of our differences, that is what we are all here to do.

                                 <F-dash>
             Prepared Statement of Hon. Harry E. Mitchell,
         a Representative in Congress from the State of Arizona

    Thank you Mr. Chairman.
    As you know, Congress has a duty to provide oversight. For this 
oversight to be effective, however, Congress needs the cooperation of 
the Administration.
    Only when we work together, can we ensure that our Nation's 
veterans receive the kind of quality medical care they deserve, and all 
the other benefits to which they are entitled.
    And clearly we have a lot of work to do.
    Veterans are experiencing long wait times for service and follow-up 
care.
    Last week the Department of Veterans Affairs Inspector General 
announced that the VA had understated the wait times our Nation's 
veterans were experiencing for healthcare services. According to the 
IG, 27 percent of the cases it reviewed were veterans with serious 
service-related disabilities.
    I have requested that this Committee pursue further action on this 
report, but in the interim, I hope that, the VA will examine the IG's 
report, and begin to fix this problem.
    More broadly, when we see long wait times, I think it is only fair 
to ask if we are providing adequate resources to serve our veterans.
    Secretary Nicholson has heard us ask this question many times, and 
I have no doubt that his successor will hear it many times as well.
    In the mean time, I look forward to hearing from the Secretary 
today about the challenges he believes we face in the months and years 
ahead.
    I want to thank him for appearing before us today, and for his 
service to our Nation's vets.
    I yield back.

                                 <F-dash>
                Prepared Statement of Hon. Jeff Miller,
         a Representative in Congress from the State of Florida

    Thank you Mr. Chairman.
    Secretary Nicholson, I want to thank you for your service to this 
country and our Nation's veterans.
    You are truly a man of the highest integrity and moral standards. 
Undoubtedly, over the past 2\1/2\ years, the Department of Veterans 
Affairs (VA) has faced a number of challenges, but you have never 
failed to put the interests of our veterans first. Because of your 
valuable leadership, we have been able to work together to make 
significant improvements in the delivery of benefits and healthcare 
services for our men and women who have worn the uniform.
    Unfortunately, one of the areas we still have not been able to 
remedy is providing for inpatient services in Florida's panhandle to 
serve the over 106,000 veterans who live there. According to VA figures 
there are more veterans in Florida's 1st Congressional District than 
the entire state of Rhode Island, which has its own Medical Center. 
Yet, veterans in my district must travel 2 to 3 hours to receive 
inpatient care in Biloxi, Mississippi.
    There is a tremendous opportunity to collaborate with the 
Department of Defense (DoD) for inpatient medical services on the 
campus of Eglin Air Force Base that would benefit both veterans and 
active duty servicemembers. The collaboration would expand VA/DoD 
sharing in a cost-effective manner and provide long overdue inpatient 
care to veterans in the region.
    Mr. Secretary, as your tenure at VA ends, I hope that you will 
commit to your successor the importance of pursuing enhanced VA/DoD 
sharing to provide needed inpatient services in Northwest Florida and 
throughout the rest of the nation.
    Mr. Secretary, I am grateful for your service and am eager to 
receive your input for a path for the future of VA.
    Thank you Mr. Chairman, I yield back the balance of my time.

                                 <F-dash>
        Prepared Statement of Hon. R. James Nicholson, Secretary
                  U.S. Department of Veterans Affairs

    Mr. Chairman and Members of the Committee:
    I want to thank you for holding this hearing and giving me the 
opportunity to discuss the current state of the VA.
    It has been a real honor to serve the President and our Nation's 
veterans as the Secretary of Veterans Affairs these past 32 months.
    My own military service and tradition go back a long way.
    I graduated from the United States Military Academy and served 8 
years on active duty as an airborne, Ranger, infantry officer, to 
include a tour of duty in Vietnam. I then continued my service as a 
member of the Army Reserve, retiring with the rank of Colonel. My 
father was an enlisted man in the Navy during World War II. My father-
in-law served in both World War II and Korea. My brother, Brigadier 
General Jack Nicholson, served 30 years in the Army. My son is a 
veteran, and 4 of my nephews are Colonels in the Army and Air Force.
    I have a particular affinity for the young men and women currently 
serving in the Global War on Terror. They are my heroes.
    Mr. Chairman, you and I returned from a trip to Iraq and 
Afghanistan only a couple of weeks ago. We had an opportunity to see 
the conditions under which these young men and women must operate. We 
had an opportunity to speak with the troops as well as to their 
leaders. What we both saw was the most impressive group of Americans--a 
group of heroes that makes all of us proud.
    They know their mission and their jobs. They are motivated. They 
are all volunteers. They are young, bright, and speak eloquently of 
their patriotism and of how they see the importance of their own roles 
in the war we are fighting today.
    That trip--and others I have taken to the region, one with Ranking 
Member Steve Buyer--renewed my own commitment to assure that, should 
any harm come to those fine young men and women, we at the VA would do 
everything in our power to meet their needs and those of their 
families. We can do no less. They have earned that.
    Mr. Chairman, today I would like to give you my current assessment 
of the VA, review our initiatives and accomplishments, and discuss 
remaining challenges. My emphasis will be on the transformations we 
have achieved, especially with respect to Operation Enduring Freedom 
(OEF) and Operation Iraqi Freedom (OIF).
    My assessment that VA is, quite possibly, the best healthcare 
system in the world, is borne out by a number of reports in the popular 
press. Most recently, a book, Best Care Anywhere: Why VA Healthcare is 
Better than Yours, by Phillip Longman, a Senior Fellow at the New 
America Foundation, addresses how the VA system of healthcare 
progressed to its present model of excellence repeatedly demonstrating 
the highest quality care in America.
    The VA is an immense institution. Not only does it provide 
healthcare to enrolled veterans, but the Veterans Benefits 
Administration (VBA) administers a number of monetary benefits, to 
include various educational benefits, home loan guaranties, a number of 
life insurance programs and a vocational rehabilitation and employment 
program.
    VBA also administers the veterans' pension system and the 
disability compensation system. Approximately 800,000 claims for 
disability benefits are filed each year. Claims for disability 
compensation, more than half of which are reopened claims seeking an 
increase in percentage of disability, present complex issues of service 
connection, effective date and degree of disability.
    For the veteran or his family unfamiliar with the legal and 
regulatory structure that defines this benefits system, navigating it 
can be a challenge. To assist them VBA operates an extensive public 
contact and outreach system. During 2006 alone, VBA public contact 
staff handled nearly 7 million phone calls from veterans and their 
families with questions concerning benefits, and we conducted more than 
a million interviews.
    Over the last 4 years, VBA military services coordinators conducted 
more than 28,000 briefings attended by more than a million active duty 
and reserve personnel and their family members. Additionally, through 
the Benefits Delivery at Discharge Program, servicemembers at 140 
military bases in the United States, Germany and Korea are assisted in 
filing for disability benefits prior to separation.
Advisory Committee on OEF/OIF Veterans
    In April of this year, I created a new Advisory Committee on OEF/
OIF veterans and their families to advise me on ways to respond to 
their unique needs and to improve programs serving those veterans, 
their families and their caregivers.
    The Committee is composed of such veterans, their survivors and 
their families, all of whom have unique insight into just how VA is 
responding to their needs. We have learned that, in many instances, we 
were not as sensitive to those needs as we could have been--and we have 
tried to adjust, while at the same time caring for veterans of 
different wars and different eras. The Committee will continue its work 
in the months and years ahead, will monitor how VA is doing, and, when 
we can do better, will point that out to VA leadership.
OEF/OIF Priority
    My heart has gone out to servicemembers or veterans who seem to 
have slipped through the cracks after their injuries. This hasn't 
happened often, but one anecdote about such an occurrence is one too 
many. It is tragic when a servicemember or veteran has been injured and 
disabled and is unable to obtain the monetary benefits he or she is 
entitled to and, more significantly, needs them to support themselves 
or their families.
    Because of the unique and immediate needs of this particular group 
of veterans, I directed the Veterans Benefits Administration to give 
priority to OEF/OIF veterans who may apply for disability compensation 
or a veteran's pension. These claims are now being processed on an 
expedited basis.
TBI, PTSD, Vet Centers
    The Improvised Explosive Device, or IED, is the signature weapon of 
the war as it is being fought in Iraq and Afghanistan. Regrettably, it 
has given rise to what has been referred to as the signature injuries 
of this war, Traumatic Brain Injury, or TBI, and Post Traumatic Stress 
Disorder, or PTSD.
    I have directed that each of our veterans of the Global War on 
Terror who comes to VA for any kind of care be carefully screened for 
brain damage or PTSD. TBI can be particularly insidious and could go 
untreated without this screening.
    Post traumatic stress disorder is different from TBI, although the 
2 can coexist. In addition, adjustment reactions also seen in our 
returning heroes has been described as a normal reaction to an abnormal 
situation--which is combat.
    The stress of the type of warfare our servicemembers are 
experiencing, coupled with the fact that they are redeploying with 
their units multiple times, can sometimes give rise to one or more 
mental health diagnoses such as PTSD, substance abuse, depression, or 
anxiety.
    When caught and treated early, the veteran may return to a 
lifestyle that is mentally healthy. Helping each of our patients to get 
better is what VA should be doing, and this applies to mental illness 
as well as physical injury.
VET Center Program
    One venue for providing support for veterans with readjustment 
issues is our VET Center program. Across the country, there are 221 VET 
Centers with 11 new Vet Centers planned for opening in fiscal year 
2008, each staffed with professionals who provide no-hassle counseling 
to veterans and their families.
    VA has recently hired 100 new Outreach Coordinators to provide 
services to returning OEF/OIF veterans. These Outreach Coordinators are 
OEF/OIF veterans themselves. They understand that group of veterans and 
can relate directly to them. These new coordinators are located in VET 
Centers throughout the country, especially near our military processing 
stations.
    Some 750,000 servicemembers from the Global War on Terror (GWOT) 
have now separated from active duty. To date over 250,000 have sought 
healthcare through the VA, something they are entitled to for 2 years 
after separation from the service, irrespective of whether they have 
been injured or incurred an illness while on active duty.
    Of course, if they have sustained any service-connected injury or 
illness, the VA will treat them indefinitely. These young men and women 
join the 7.6 million (2nd Quarter, 2007) already enrolled for their 
healthcare in the VA healthcare system.
Health Initiatives
    I was stunned to learn when I arrived at VA that some 25% of the 
veterans we care for suffer from adult-onset Type II diabetes. That is 
a disease often associated with obesity. Diabetes is a disease that can 
lead to complications which, in time, can result in blindness, renal 
failure or amputations.
    Because of the seriousness of a diabetes diagnosis, I commenced a 
major campaign to reduce the high rate of obesity and diabetes in 
veterans. Essential to this is eating more healthy meals and exercise 
and, since launching that initiative, every veteran participating has 
been given a pedometer and encouraged to walk 10,000 paces each day. 
Should they do so, I know we will see a much healthier, fitter veteran 
in and around our various facilities.
    A major health issue in the United States is the increasing 
incidence of Methacillin Resistant Staph Aureus (MRSA). VA's Pittsburgh 
VAMC introduced an initiative to reduce MRSA. They found that by 
isolating patients who were carrying the bacteria as well as by 
scrupulously washing and sanitizing your hands, MRSA was virtually 
eliminated.
    The Pittsburgh program was originally intended as a pilot which, if 
successful, would be rolled out slowly across the country. Because of 
its success, I launched a national effort in the Veterans Health 
Administration to eradicate staph infections in all VA hospitals. VA 
has served as a model for the country with this initiative.
    There is a shortage of nurses within healthcare in America. VA 
feels this throughout the VHA system where recruitment and retention of 
nurses is a tremendous challenge. In an effort to ameliorate this 
situation, VA recently created a new multi-campus Nursing Academy 
through partnership with the nursing schools throughout the country.
    It is my hope that, having done a substantial portion of their 
training at VA healthcare facilities, these nurses will see VA as a 
desirable employer, affording competitive pay and benefits and boasting 
a noble mission of caring for America's veterans, and that they will 
remain with VA as a career.
Paradigm Shift
    Over the years, there has been a radical change in the way 
healthcare is delivered. At one time, individuals who were ill went to 
a hospital and, more often than not, they stayed there for many days. 
That is no longer the case. Today the best medicine involves getting 
you into--and out of--a hospital as quickly as possible.
    Many procedures which once required hospitalization are today done 
on an outpatient basis. VA now has nearly 900 outpatient clinics 
(including community-based outpatient clinics, or CBOCs, hospital-based 
outpatient clinics and outreach clinics.) During my tenure, I approved 
82 new CBOCs to bring VA's top-notch care closer to veterans who have 
earned it through service to their country.
Electronic Medical Records
    Among the things that make this system of healthcare so effective 
is the Veterans Health Information System of Technology Architecture 
(VistA), the nationally recognized Electronic Medical Record, so widely 
utilized throughout the VA.
    An enrolled veteran can be treated at any one of the points of 
access to our system and all of his or her relevant health information 
will be available to the treating healthcare team. This capacity was 
particularly valuable during Hurricanes Rita and Katrina when, because 
of the flooding along the southeast Gulf Coast, it was necessary for us 
to evacuate 2,830 patients to 9 VA and 2 Department of Defense (DoD) 
Federal Coordinating Centers.
    Approximately 150 veteran patients alone were evacuated from the 
New Orleans VAMC. Because of VA's electronic health records, all 
relevant information about those veterans was available to the 
receiving VA hospital. Harvard University has twice recognized VA for 
its electronic health record with its award for innovation in 
healthcare.
    Let it also be noted here that many of the healthcare providers 
evacuated with their patients, even though they themselves lost 
everything in the flooding that occurred after the levees gave way. I 
was truly moved by their heroic commitment to their veteran patients.
Research
    I recognize VA's prominent role in medical research. I created a 
Blue-Ribbon Genomic Research Advisory Committee to earn the trust of 
veterans and the community as we develop our program to advance the 
science of personalized medicine. This will enhance our ability to 
prevent disease before it emerges and enable us to design treatments to 
restore health and function for our veterans.
    VA investigators led the way in developing the cardiac pacemaker, 
pioneered concepts that led to the development of the CAT scan, 
improved artificial limbs and helped develop a vaccine for shingles. VA 
investigators are distinguished among the best in their field with 6 
Lasker Award winners and 3 Nobel Laureates, including: Dr. Ferid Murad 
for his contribution to understanding the role of nitric oxide in the 
body, including regulation of blood pressure; Dr. Andrew Schally for 
his discoveries concerning peptide hormone production in the brain; and 
Dr. Rosalyn Yalow for her work with radioisotopes, leading to the 
development of modern diagnostic assays.
Mental Health Initiatives
    Of late, DoD has released alarming statistics about the number of 
servicemembers who have committed suicide this past year. According to 
a recently released Associated Press article, last year the largest 
number of suicides of active duty Army servicemembers occurred in the 
26 years that that statistic has been maintained.
    Because of suicides among the veterans for whom we care, I directed 
the hiring of suicide prevention counselors at each of VA's 153 
hospitals. This was intended to strengthen one of the nation's largest 
mental health programs. I also directed the establishment of an around-
the-clock, national suicide prevention hotline.
    The hotline became operational in July of this year and received 
its first call on July 25. Since that time and through September 1, as 
a result of calls to the suicide prevention hotline, 346 callers were 
referred to a VA suicide prevention coordinator, 194 warm transfers 
were made to community hotlines, and there were 56 rescues.
Reform Initiatives
    Following the disclosure of substandard conditions for the medical 
hold detachment outpatients at Walter Reed Army Medical Center, the 
President appointed me to lead the Cabinet level Task Force on 
Returning Global War on Terror (GWOT) Heroes to improve the delivery of 
Federal services and benefits to GWOT servicemembers and veterans.
    The charge to the Inter-Departmental Task Force composed of my 
colleagues from DoD, Health and Human Services, Department of Labor, 
Housing and Urban Development, Education, Small Business 
Administration, Office of Personnel Management, and the Social Security 
Administration was to review existing authorities and provide 
recommendations as to how these servicemembers can be better served. We 
did that and, after 45 days of deliberation, submitted a list of 25 
recommendations to the President. We are monitoring those, keeping 
track of their implementation and reporting to the President on a 
regular basis.
IT Transformation
    The structure of a large agency such as VA must, of necessity, be 
adjusted over time to ensure that the institution can be responsive to 
its mission under ever-changing circumstances. Significantly, the VA 
Information Technology structure, long decentralized, needed to be 
updated and regularized so as to be consistent with the IT world in 
which we live. In 2006, VA launched a major information technology 
transformation and consolidation.
    Significantly, this will govern the way VA uses and safeguards 
veterans' personal and health information. With identity theft being 
among the fastest growing crimes in the country today, this 
consolidation and the resulting heightened security of personal 
identifying information will make the VA the ``gold standard'' in the 
realm of information privacy and security.
Laptop Loss
    In May 2006, a VA employee took a laptop and an external hard drive 
home with him. The employee was doing an analysis of significant 
amounts of data relating to veterans. The data was on the hard drive in 
unencrypted form. The computer and hard drive were stolen, exposing 
some 26 million veterans to the possibility of identity theft. Later 
the computer and hard drive were found and FBI forensic experts 
determined that the data had not been accessed.
    This situation highlighted the need for VA to better protect data 
relating to our veterans. Since that time, the security regimen at VA 
has been totally revised. IT has been reorganized and centralized under 
the control of a single Assistant Secretary. I believe that this 
reorganization, and the modification and strengthening of our 
regulations governing IT, its use, and its security will minimize the 
risk of a significant data loss in the future.
Emergency Support Mission
    In addition to the traditional VA missions relating to healthcare 
and benefits, VA has a ``Fourth Mission'' to provide support to the 
country in the event of national disaster. (Authority for this is 
through the Robert T. Stafford Disaster Relief and Emergency Assistance 
Act and implementation is through the National Medical Disaster Plan.)
    In order to better do this, VA created a new Office of Operations, 
Security, and Preparedness to deal with emergency planning and 
security. That office is charged with planning for Continuity of 
Government and Continuity of Operations scenarios and participates in 
government-wide exercises throughout the year.
Acquisition and Construction
    VA has also sought to create an additional Assistant Secretary 
position for Acquisition and Construction. Each year, VA spends 
billions of dollars for products and services. Each year there are 
additional new VA medical centers put into the planning process through 
the authorization and appropriations process.
    With VA's physical plant being, on average, 57 years old, plus the 
demographic shifts in the veteran population, it is essential that VA 
do all it can to update and modernize its facilities. The cost of 
purchasing land, design, and construction of a new VA hospital is in 
the range of $750 million. The magnitude of these numbers and the 
complexity of the acquisition process indicate that there must be the 
very highest levels of supervision and accountability.
National Cemetery Administration
    Of course, in addition to healthcare and monetary benefits, VA's 
National Cemetery Administration (NCA) provides memorial benefits for 
our veterans. In FY 2006, NCA provided more than 330,000 headstones or 
markers for graves of veterans worldwide. And NCA currently maintains 
more than 2.8 million gravesites at 125 national cemeteries in 39 
States and Puerto Rico. NCA is currently in the midst of the largest 
expansion of the national cemeteries since the Civil War.
    The shrine-like setting of our National cemeteries serves as a 
perpetual reminder of the sacrifice of our service men and women.
VA Employees
    There are so many things that I am proud of relating to my tenure 
as Secretary. I am most proud of the people I have had the honor to 
work with who are so invested in the mission of the VA--to provide care 
to a group of people who have earned the right to it through service to 
their country. Abraham Lincoln said it most eloquently in his Second 
Inaugural Address: ``To care for him who shall have borne the battle, 
and for his widow and his orphan.'' VA has proudly done that for more 
than 75 years now, and is in good shape to do so, especially for the 
newest veterans of the Global War on Terror, in the years ahead.
Challenges
    I have outlined some of the positive experiences of my tenure. Yet, 
as each of you know, the past few years have not been without their 
challenges and frustrations. Among those are the following:
Claims Backlog
    The claims backlog is an issue that has bedeviled me and many that 
have come before me. In fact, VA can influence the output (claims 
decided) of its work product, but it cannot control the input (claims 
filed).
    And, in the midst of a war, more claims for service connected 
disabilities are being filed. In addition, veterans of previous 
conflicts have been filing claims at a higher number as they are 
reminded of incidents from their own military backgrounds by news 
reports from Iraq and Afghanistan.
    From FY 2000 to FY 2006, receipts of disability compensation and 
pension claims rose from nearly 578,000 to more than 800,000--an 
increase of more than 39%. We expect to receive 835,000 disability 
compensation and pension claims this current fiscal year
    To control the output, VBA is hiring additional staff. Since 
January of this year, we have already added 1,100 new staff members to 
help us in our commitment to reducing the claims backlog. VBA is also 
working to consolidate suitable components of its work--as has been 
recommended by a number of Government Accountability Office reports--to 
achieve efficiencies, more consistent claims decisions, and better 
control over work processes and product.
Mental Healthcare Delivery
    As noted earlier, I have directed that every veteran of the Global 
War on Terror be screened for Traumatic Brain Injury and PTSD, no 
matter what they are being treated for. VA is the largest provider of 
mental healthcare in the country. We employ 9,000 mental health 
professionals including psychiatrists, psychologists, social workers 
and clinical nurse specialists at all of our facilities. VA is the 
world's expert on the treatment of PTSD, which is manifesting itself 
among some of our returning servicemembers.
    VA's mental health strategic plan is generally considered to be 
superb. Unfortunately, because VA was forced to operate under a 
continuing resolution for much of last year, it was not able to expend 
funds consistent with that plan. In addition, there are areas of the 
country where certain specialty healthcare providers simply can't be 
hired, no matter what you would pay them.
    Nonetheless, we have expanded mental health services in CBOCs 
either with on-site staffing or by telemental health, thus providing 
care closer to the homes of veterans in rural areas. We also have 
enhanced both PTSD and substance abuse specialty care services, and 
programs that recognize the common co-occurrence of these problems.
    We are fostering the integration of mental health and primary care 
by funding evidence-based programs at more than 80 sites, with more in 
the planning stages, as well as through the aforementioned placement of 
mental health staff in CBOCs. In addition, we are extending this 
principle to the care of home-bound veterans by funding mental health 
positions in Home-Based Primary Care.
    This program has traditionally served older veterans, but current 
needs show that it also will serve some seriously wounded OEF/OIF 
veterans. It can allow veterans to live at home with their families as 
an alternative to institutional long-term care when injuries are 
profound and sustained rehabilitation and other care is needed. The 
mental health professionals who will work with these teams also can 
support the family caregivers, who provide heroic care for injured 
veterans.
    VA will be working to emphasize recovery and rehabilitation in 
specialty mental health services by funding additional psychosocial 
rehabilitation programs, expanding residential rehabilitation services, 
increasing the number of beds and the degree of coordination in 
homeless programs, extending Mental Health Intensive Case Management, 
and funding a recovery coordinator in each medical center.
Bonus Issue
    Some months ago it was noted that, like every other government 
agency, VA had paid bonuses to its Senior Executives. The bonuses were 
paid from a pool of funds created in accordance with statute and OPM 
regulations. And the bonuses were determined by panels of Senior 
Executives acting in accord with OPM guidelines.
    The highest SES salary is about $165,000. A few bonuses in the 
amount of $30,000 were paid in recognition of the accomplishments of 
highly competent, long serving executives. Some criticized that one of 
those executives had been involved in the preparation of the FY 2005 
budget which had fallen short and another holds a senior position in 
VBA, the administration that continues to struggle with backlogs.
    I personally have worked with both of these individuals and have 
the highest regard for their ability and their prodigious work ethic. I 
believe that the criticism leveled at each of them is unwarranted in 
that they encountered conditions beyond their control and used their 
considerable skills to minimize the problems they encountered.
Closing
    Mr. Chairman, once again let me thank you for allowing me to appear 
before the Committee to discuss the current state of the Department of 
Veterans Affairs and many of the positive things that occurred during 
my tenure as Secretary.
    To be sure there have been disappointments, but working with you, 
Ranking Member Buyer and other Members of the Committee, I believe we 
have made tremendous progress. Together, we have made VA a stronger, 
more focused organization--focused on the very real needs of all of our 
veterans, especially those currently engaged as warriors in the Global 
War on Terror. It has been my great pleasure to serve them, as well as 
all veterans who served before them.

                                 <F-dash>
                    Statement of Hon. Corrine Brown,
         a Representative in Congress from the State of Florida

    Thank you for holding this hearing today, Mr. Chairman.
    Thank you also, Secretary Nicholson, for your service to this 
country and to our veterans.
    When I heard of your resignation, I was disappointed because I felt 
that you finally were getting the hang of this job and were starting to 
do good work.
    I think we can agree that the young men and women serving in Iraq, 
Afghanistan, and around the world are the heroes fulfilling the mission 
we here in Washington have given them.
    I recently had a chance to go to Normandy and visit the cemetery 
and battlefields there. A very awe-inspiring sight. There is a new 
visitors center that was just finished. It explains the entire battle 
and the heroism of those who served in horrible conditions.
    The organization that oversees all foreign American battlefields is 
The American Battle Monuments Commission. It is a small independent 
agency in the executive branch of the United States federal government. 
Funded by the President, in his budget.
    If the President can see that it is worth including in the budget 
full funding to honor those who paid the ultimate sacrifice for our 
freedom, why can he not include full funding for those veterans who are 
here and bear the scars of those same wars.
    When it comes to increased spending on the priorities of these 
veterans, his knee-jerk reaction is to threaten a veto. After he heard 
these veterans loud and clear, he rescinded his threat to veto, but 
continues to urge less funding the bill.
    The cost of war includes the veterans who return.

                                 <F-dash>
                  Statement of Hon. Ginny Brown-Waite,
         a Representative in Congress from the State of Florida

    Thank you Mr. Chairman,
    Secretary Nicholson, I want to thank you for testifying before this 
Committee today. During your tenure as Secretary, the Department of 
Veterans Affairs has seen its share of controversy and successes. While 
I am eager to hear your assessment of your time at the VA, I want to 
take this opportunity to thank you for your service to our country.
    Under your leadership, the Department of Veterans Affairs has seen 
great improvements in the way we treat our veterans returning home from 
the battlefield. Today, the VA has in place programs that help guide 
veterans through the maze of benefits and regulations they are 
confronted with when they are discharged. There is also more emphasis 
placed on veterans who suffer from post-traumatic stress disorder. The 
effects of this disorder should not be underestimated, and I am 
encouraged at the steps that are being taken to improve the way we 
treat the men and women suffering with this disorder.
    Once again, I welcome you to the hearing and look forward to 
hearing your thoughts on the issues before us today.

                                 <F-dash>
          POST HEARING QUESTIONS AND RESPONSES FOR THE RECORD
                                     Committee on Veterans' Affairs
                                                     Washington, DC
                                                   October 10, 2007

Honorable Gordon Mansfield
Acting Secretary
U.S. Department of Veterans Affairs
810 Vermont Ave., NW
Washington, DC 20420

Dear Secretary Mansfield:

    In reference to our Full Committee hearing ``The State of the 
Department of Veterans Affairs'' on September 18, 2007, I would 
appreciate it if you could answer the enclosed hearing questions by the 
close of business on November 21, 2007.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all Full 
Committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,
                                                         BOB FILNER
                                                           Chairman

                                 ______
                                 
                        Questions for the Record
                      The Honorable Corrine Brown
                  House Committee on Veterans' Affairs

    In your written testimony, you spoke of the importance and 
effectiveness of the VA's initiative for electronic medical records, 
and its usefulness during national emergencies, such as Hurricane 
Katrina.

    Question: Later, you mentioned one instance of data loss, and say 
that the security regimen has been revised. We are all aware of other 
data losses by the VA. What have you done to stop this data loss from 
continuing?
    Response: The Department of Veterans Affairs (VA) has been 
proactive in putting measures in place that mitigate the risk of loss 
of sensitive VA data. In 2006, VA established the Data Security-- 
Assessment and Strengthening of Controls Program, an overarching plan 
to correct deficiencies and eliminate vulnerabilities in information 
security. This program combined with the Chief Information Officer's 
(CIO) new authority, control over the information technology (IT) 
budget, and realignment of VA's IT organizational structure, creates 
the centralized environment that provides the CIO with the command and 
control necessary to direct remediation of vulnerabilities and rectify 
longstanding problems in the information security area. This will 
provide for more consistent and effective management and remediation of 
IT security deficiencies.
    In 2007, VA established the Office of IT Oversight and Compliance, 
which consolidates existing IT security inspection/compliance program 
activities into one office to assist the CIO in the enforcement of IT 
security controls.
    VA has also issued numerous Department-wide IT memorandums, 
directives, policies, and procedures addressing high-risk areas 
involving the use of sensitive information. These will help ensure the 
protection of VA IT assets by establishing and/or strengthening 
controls associated with access to and accountability for VA 
information systems. For example, in September 2007, VA 6500 Handbook 
(Information Security Program) was issued which defines the 
requirements for the secure use of information inside and outside the 
Department. In addition, VA has issued procedures for the reporting and 
handling of computer security incidents which improve the Department's 
capability to quickly and effectively respond to these incidents. VA 
has also developed a plan to reduce the use of Social Security numbers 
within the Department and has published an interim regulation in 
response to the Veterans Benefits Healthcare and Information Technology 
Act of 2006, otherwise known as Public Law 109-461. VA designed and 
implemented an ongoing One-VA privacy policy framework that prescribes 
privacy practices and activities, facilitates compliance, and provides 
risk mitigation and appropriate information management. In response to 
the Birmingham data incident, VA developed a checklist for research 
information security and a handbook which places more stringent 
requirements on the use and storage of VA research data that are used 
by VA research facilities.
    To ensure that all users not only understand their obligations and 
responsibilities for protecting VA sensitive information but also the 
penalties for non-compliance, VA has updated and improved its Cyber 
Security and Privacy Awareness training modules and requires all 
employees to sign a statement of commitment and understanding regarding 
their responsibilities for protecting VA sensitive information. VA also 
developed Web-based training on laptop security controls to mitigate 
the risks of compromise of VA data via mobile computing devices.
    In the technical arena, VA has deployed Rights Management Services 
(RMS) software to handle e-mail encryption as well as file and document 
encryption for data at rest. RMS will better safeguard sensitive data 
within VA, not only through the use of encryption but by controlling 
what authorized recipients can do with this data. To strengthen the 
controls over data stored on mobile computing devices, VA has encrypted 
over 18,000 laptops.
    VA's plans to strengthen controls over the transmission, 
processing, and/or storage of its data in fiscal 2008 include deploying 
tape encryption throughout the Department, completing the roll-out of 
part security and host integration software to secure large data sets, 
installing Public Key Infrastructure (PKI) encryption for all medical 
care staff, developing plans to have PKI implemented for medical care 
contractors, and formulating a strategy for integration of evolving 
technology and other best practices into the Department's encryption 
management program.

                                 ______
                                 
                        Questions for the Record
          The Honorable Stephanie Herseth Sandlin, Chairwoman
                  Subcommittee on Economic Opportunity
                  House Committee on Veterans' Affairs

    Question: Please provide me with an update regarding the Department 
of Veterans Affairs review of the risk of depleted uranium (DU) 
exposure to U.S. soldiers. Does the VA continue to assess potential DU 
exposure to servicemembers, identify and inform those servicemembers of 
the possibility of exposure to DU?
    Response: About 2000 veterans and active-duty servicemembers have 
been tested for depleted uranium (DU) by the Department of Veterans 
Affairs (VA) program at the Baltimore VA Medical Center. Based on the 
VA clinical surveillance program, it appears that veterans with 
retained depleted uranium (DU) fragments are at greatest risk for 
significant DU exposure,
    VA continues to offer DU screening to all eligible veterans 
concerned about possible DU exposure in service. Screening has been 
provided both to veterans identified by the Department of Defense as 
potentially exposed to DU as well as those that self-identify. The 
screening includes a questionnaire and 24-hour urine test for DU. Few 
veterans appear to have been exposed to significant levels of DU unless 
they were wounded with DU munitions and metal fragments.
    Veterans at highest risk for DU exposure continue to be offered 
long-term clinical surveillance by the VA DU program at the Baltimore 
VA Medical Center.

                                 ______
                                 
                        Questions for the Record
                       The Honorable Joe Donnelly
                  House Committee on Veterans' Affairs

    `The Veterans Benefits Administration continues to struggle to make 
progress on the backlog in claims, reduce wait times and prepare for 
what likely will be an increasing number of new claims as well as more 
claims for multiple and complex disabilities in the future. As you 
know, the idea of granting veterans' disability claims on the basis of 
a presumption of service connectedness and then auditing a percentage, 
as proposed by Harvard professor Linda Bilmes earlier this year, seems 
to me and several Members of this Committee as a proposal worth 
pursuing. Certainly, such a system would have to be carefully 
structured and prevent and discourage inaccurate or fraudulent filings. 
I know there are many legitimate concerns with such an approach as it 
involves a major paradigm shift in how the VA serves America's 
veterans.
    You have mentioned to me privately, and also spoken of publicly, 
your support for exploring this concept. I would appreciate your 
response to the questions below.

    Question 1: Would you support a shift away from the current claims 
process to approving veterans' disability claims based on a presumption 
of service connectedness?
    Response: The underlying concern expressed by you, Professor 
Bilmes, and others is the length of time needed to determine 
entitlement to benefits. The Department of Veterans Affairs (VA) 
strongly supports simplification and streamlining of the claims process 
to make it less burdensome and quicker for veterans and survivors. It 
is true that I have advocated doing a test to determine the feasibility 
of an assumption of validity with a random audit to follow, like the 
Internal Revenue Service refund model.
    However, as I have discovered and as you point out, there are 
legitimate concerns with an approach such this which was suggested to 
me by Professor Bilmes. Our concerns are not principally focused on 
``inaccurate or fraudulent filings.'' Our experience is that, while 
many claims or parts of claims cannot be granted, we have not found 
that these claims themselves were knowingly fraudulent or inaccurate. 
We are confident that whether ultimately determined entitled or not, 
virtually all claimants file applications for benefits either because 
they honestly believe they are entitled or they want to find out if 
they are entitled. Shifting to a ``pay for application'' process will, 
in our view, expose the system to precisely the kind of fraud and abuse 
you mention, but we have not thus far experienced. But that is not our 
only concern.
    We believe that adopting the suggested approach will have serious 
unintended consequences. The first of those is that this approach may 
not shorten the process at all if the system is overwhelmed by a 
dramatic increase in claim volume due to the relaxed standard. 
Currently some of the time it takes to decide a claim is queue time 
because of the volume of claims we are now receiving. We appreciate the 
additional resources the Congress is providing us. This will enable us 
to significantly reduce delays due solely to claim volume.
    We believe the entitlement cost of such a system is incalculable. 
Currently, VA grants a minority of conditions claimed. The proposed 
system would ``grant and audit.'' We interpret this to mean that all 
claimed conditions will be granted. Further we interpret ``audit'' to 
mean that not all awarded claims would be reviewed and validated. It is 
not clear to us how we would assign any disability evaluation other 
than the maximum scheduler evaluation permitted for each disability if 
we were to award benefits based solely on the application without 
evidence.
    As important as the unwarranted increase in benefit expenditures, 
such an approach will place unprecedented demands on VA healthcare 
services since all veterans will be awarded compensation for their 
claimed conditions, be eligible for enrollment, and in most cases be in 
the highest eligibility categories.
    Additionally, we believe there may be a misunderstanding of the 
component parts of the claims process cycle time. Because the VA 
compensation system is one that compensates at multiple disability 
evaluation levels, significant development is needed. Thus, there is 
significant time built into the system waiting for evidence. Further, a 
substantial number of veterans do not apply for benefits until years 
(in many cases, many years) after discharge. Because the Armed Services 
provide separation examinations for only a small number of service 
persons separated, the impact is further aggravated.
    Finally, the audit process is almost certain to result in 
significant veteran dissatisfaction. We believe that in the vast 
majority of cases audited, it will be necessary to sever service 
connection for at least one, if not many, conditions. Audited cases 
where service connection is maintained will also be placed in the 
perverse position, due to being audited, or having their disabilities 
properly evaluated, while those not audited retain their initial 
evaluations. To be fair to all, VA would have to audit all awards. If 
that were done, the caseload would dramatically increase because every 
case would be worked twice, once to initially award and the second time 
when the deferred development and assessment are actually accomplished.

    Question 2: To what extent would such a change be applied? Would 
you only apply the presumption process to new claims of recent 
veterans, or for new claims by all veterans?
    Response: We now do not believe it would be possible to limit the 
process to a subset of applicants.

    Question 3: If Congress or the Administration were to structure 
such a system, how might we reduce or discourage the potential for 
fraudulent claims, or even claims that are filed in good faith but may 
not truly be service-connected?
    Response: From our perspective, efforts to discourage fraudulent 
claims and claims that are unlikely to be granted would be of limited 
effectiveness. The best way to avoid awarding benefits in error is to 
perform a comprehensive review of the evidence used to establish 
entitlement prior to granting the benefit. Although it may take a 
little longer to grant benefits, it ensures the integrity of the 
veterans' disability program by compensating only those who are 
entitled.

    Question 4: In your opinion, how might such a proposal address 
awarding a benefit for multiple disabilities filed at once or 
concurrently?
    Response: As indicated earlier, without taking the time to obtain 
needed information to properly evaluate the disabilities as to their 
origin and their level of impairment, we can not see how benefits could 
be granted at any level other than the maximum allowable compensation 
rate for each disability claimed. Given that many veterans file claims 
using imprecise descriptions for the conditions claimed, it would also 
be difficult to determine which diagnostic code to assign to a 
condition.
    Your question also raises an important issue, in that very 
seriously disabled veterans may be entitled to compensation above the 
100 percent level based on special monthly compensation (SMC). We do 
not believe we could determine entitlement to SMC without a thorough 
examination.

    Question 5: If a complete transition to a presumption process is 
not feasible at this time, would you support a more limited approach, 
for example, granting all OIF and OEF veterans' disability claims 
immediately upon filing; or granting all OIF and OEF servicemembers who 
are discharged by the Department of Defense for a disability a 
temporary disability rating--i.e. 30 percent--upon the date of 
separation from service until the VBA determines the claim otherwise?
    Response: This was akin to what I was explaining with Office of 
Management and Budget and my senior staff. I understand that VA and 
Department of Defense (DoD) have begun a pilot of a joint DoD/VA 
Disability Evaluation System (DES). The pilot began November 26, 2007, 
in the national capital region. In this pilot, claims are being taken 
early in the DES process, and wounded, ill, and injured servicemembers 
are examined for both their potentially unfitting conditions and other 
conditions they believe to be incurred in or aggravated by service 
according to VA protocols. DoD determines whether the member is fit or 
unfit. If found unfit, VA prepares the rating for all unfitting and 
claimed conditions. DoD accepts the evaluation assigned by VA for the 
unfitting condition(s) for purposes of determining whether the member 
is entitled to severance pay or retired pay. VA awards compensation 
immediately at the time of discharge.
    In summary, we reiterate our commitment to working with Congress to 
improve service delivery to America's disabled veterans through process 
simplification, workforce restructuring, the application of technology 
where appropriate, strengthened data exchange with the military 
services, maintaining adequate resources, and other efforts.

                                 <F-dash>
                                     Committee on Veterans' Affairs
                                                     Washington, DC
                                                    October 5, 2007

Honorable Gordon Mansfield
Acting Secretary
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Mr. Secretary:

    In reference to our Committee hearing of September 18, 2007, I 
would appreciate your response to the enclosed additional questions for 
the record by close of business Monday, November 5, 2007.
    It would be appreciated if you could provide your answers 
consecutively on letter size paper, single spaced. Please restate the 
question in its entirety before providing the answer.
    If you have any questions in this regard, please contact Kingston 
Smith at (202) 225-3527. Thank you for your cooperation in this matter.

            Sincerely,
                                                        Steve Buyer
                                          Ranking Republican Member
SB:dwc

                                 ______
                                 
                        Questions for the Record
   The Honorable Gus M. Bilirakis, House Veterans' Affairs Committee
                           September 18, 2007
                              State of VA
    First Mr. Secretary, I just wanted to thank you for your service to 
our Nation's veterans.

    Bay Pines Incident: Recently, there was a tragic incident at the 
Bay Pines VA Medical Center which is located near my congressional 
district. A VA employee, who was not a veteran, suffered a heart attack 
while at work on the VA grounds. Rather than take the employee to the 
medical center's emergency room, the local paramedics took the employee 
to a more distant hospital where the employee was pronounced dead. At 
the time of the incident, there was confusion on whether or not the 
employee could be treated at the VA facility's emergency room because 
he was not a veteran.

    Question 1: Mr. Secretary, does the VA have an established policy 
of treating non-veterans in emergency situations?
    Response: Under the authority of Title 38 USC 1784 which was made 
effective in January 2002, ``The Secretary may furnish hospital care or 
medical services as a humanitarian service in emergency cases, but the 
Secretary shall charge for such care and services at rates prescribed 
by the Secretary.''

    Question 2: If yes, has that policy been clearly disseminated to 
all VA medical facilities?
    Response: The policy outlined above under Title 38 USC 1784 has 
been clearly and repeatedly communicated throughout the Department of 
Veterans Affairs.

    Question 3: What steps has the Department taken to make sure that a 
similar incident will not be repeated at other VA medical facilities?
    Response: VA feels very saddened by the circumstances on the Bay 
Pines VA Campus where a long time, dedicated employee passed away.
    The analysis of this incident has identified 3 areas where 
improvements can be made.

    1.  Cardiopulmonary arrests can occur anywhere and not necessarily 
involve high risk patients.
    2.  Public access to defibrillators and staff training in basic 
life support is crucial.
    3.  Communication mechanisms for notification of cardiac arrest as 
well as prospective engagement with local emergency medical services 
(EMS) systems must be refined.

    VA is in the process of addressing all of these findings. Prior to 
this incident and in 2007, VA had published the ``Inter-Facility 
Transfer Policy'' Directive (2007-15) which specifically states that VA 
will comply with the Emergency Medical Treatment and Active Labor Act 
(EMT ALA) regulations published by Health and Human Services. These 
regulations require that healthcare facilities stabilize all patients 
(regardless of their eligibility or ability to pay for care) prior to 
transferring to them another facility.
    Currently, VA is in the process of developing 2 more directives to 
help clarify policies in an effort to ensure that such a situation does 
not recur at any other VA facility.
    The first Directive, Delivery of Emergency Care in the Veterans 
Health Administration, ensures that all VA facilities with emergency 
departments will accept any unstable patient for emergency care 
regardless of eligibility, if they are on VA grounds or if the VA 
facility is the closest facility for a patient being transported by 
emergency medical service (EMS) with a life threatening emergency. This 
policy also consolidates the components of all emergency related 
guidance into a single, succinct policy.
    The second Directive: Public Access Automated External 
Defibrillators (AED's): Deployment, Training and Policies for use in VA 
Facilities ensures every VA facility has a plan and the resources in 
place to rapidly initiate the appropriate emergency response to a life 
threatening emergency.
    Collectively, these policies deal with the appropriate logistics, 
staff training, and the deployment and maintenance of the necessary 
equipment to effectively manage a cardiac arrest patient on a VA 
campus. In addition, they also address the need to prospectively engage 
the local EMS providers to ensure suitable care at all times.

                                  <all>

</pre></body></html>
